<html>
<title> - MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
   MILITARY CONSTRUCTION AND VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        THURSDAY, APRIL 14, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:02 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tim Johnson (chairman) presiding.
    Present: Senators Johnson, Nelson, Pryor, Tester, Kirk, 
Hutchison, Murkowski, Blunt, and Hoeven.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

STATEMENT OF HON. KATHERINE HAMMACK, ASSISTANT 
            SECRETARY OF THE ARMY (INSTALLATION, 
            ENVIRONMENT AND ENERGY)
ACCOMPANIED BY:
        MAJOR GENERAL JAMES C. BOOZER, DIRECTOR OF OPERATIONS, OFFICE 
            OF THE ASSISTANT CHIEF OF STAFF (ARMY INSTALLATION 
            MANAGEMENT)
        MAJOR GENERAL RAYMOND W. CARPENTER, ACTING DIRECTOR, ARMY 
            NATIONAL GUARD
        JAMES L. SNYDER, ASSISTANT CHIEF, ARMY RESERVE

                OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Good afternoon. This hearing will come to 
order.
    I welcome everyone to today's hearing to discuss the 
President's fiscal year 2012 budget request for military 
construction (MILCON) and family housing for the Department of 
Army and the Department of the Air Force.
    We will start with the Army. Our witnesses will be 
Katherine Hammock, Assistant Secretary of the Army for 
Installations, Energy and Environment; Major General James C. 
Boozer, Director of Operations for the Army; Major General 
Raymond W. Carpenter, Acting Director for the Army National 
Guard; Mr. James L. Snyder, Assistant Chief of the Army 
Reserve.
    I would like to extend a personal welcome to General 
Carpenter, who is a fellow South Dakotan. I thank each of you 
for coming and I look forward to your testimony.
    I remind my colleagues that in order to reserve the 
majority of time for the questions, our procedure will be to 
have opening statements by the chairman and ranking member, 
followed by an opening statement from the Secretary and remarks 
from members of the panel. We will limit our first round of 
questions to 6 minutes per member, but we can have additional 
rounds, should we need them.

                           PREPARED STATEMENT

    If there are any of my colleagues that wish to have 
statements submitted for the record, they will be accepted for 
the record without objection.
    [A statement follows:]
                Prepared Statement of Senator Roy Blunt
    Thanks, Mr. Chairman and I appreciate the opportunity to hear from 
our distinguished witnesses from both panels today.
    Missouri has two critically important bases in Whiteman Air Force 
Base and Fort Leonard Wood. I'm proud to represent the soldiers and 
airmen who serve at these facilities. Both have construction needs and 
I'm anxious to ensure that those needs are met to the greatest extent 
possible.
    Missouri is also home to nearly 31,000 Guardsmen and Reservists, 
men and women who our Nation has relied upon like no other time in our 
history during the past decade. We need to do right by them and I look 
forward to working with you to meet their needs as well.
    Obviously in today's fiscal environment it's more important than 
ever that we wisely invest our scarce resources. Ensuring that our 
soldiers and airmen are properly housed and have available amenities 
meets that test and I'm hopeful that this subcommittee will be able to 
do its work and deliver on those needs.
    In particular I want to make a note of the tornado damage incurred 
at Fort Leonard Wood earlier this year. I had a chance to visit the 
base in the wake of that disaster and I'm hopeful that the Army will 
come through with needed repairs and upgrades, especially with regard 
to the base's housing facilities, in the near future. I'd like to ask 
Assistant Secretary Hammack if she can follow up with me after this 
hearing with an update on what is being done in this regard.
    While I'm quite certain you already are in possession of these 
requests, I want to submit the highest priority requests from both 
Whiteman and Fort Leonard Wood for the record.
    Once again, thanks for the work that you're doing to make the 
difficult decisions on where to prioritize resources for our soldiers 
and airmen. They're our Nation's most valuable asset and they deserve 
whatever we can feasibly provide for them during these difficult 
economic times.
    [The following budget requests were submitted for the record from 
Fort Leonard Wood, Whiteman Air Force Base, and Missouri National 
Guard:]

FORT LEONARD WOOD--PROJECT PRIORITY LISTING: COMBINED (FISCAL YEARS 2013-
                            2017 AND BEYOND)
------------------------------------------------------------------------
           Project
  2010     number       Proponent          Project           Command
priority    (PN)                         description
------------------------------------------------------------------------
      178184      DPW.............  Permanent Party    IMCOM
                                     Barracks.
      265234      MEB.............  92d MP Bn Vehicle  FORSCOM
                                     Maintenance
                                     Facility.
      365679      MEB.............  5th En Bn & 50th   FORSCOM
                                     MRBC Vehicle
                                     Maintenance
                                     Complex.
      465236      MEB.............  92d MP Co          FORSCOM
                                     Operations
                                     Complex.
      566099      MEB.............  94th EN BN         FORSCOM
                                     Complex Phase 2.
      654489      DPW.............  Training Barracks  TRADOC
                                     Complex III,
                                     Phase 2.
      750486      DPW.............  Training Barracks  TRADOC
                                     Complex II,
                                     Phase 2.
      871502      DPW.............  AIT Barracks       TRADOC
                                     Complex 2, Phase
                                     I.
      955315      DPW.............  Training Barracks  TRADOC
                                     Complex VIII,
                                     Phase 1.
     1071684      DPW.............  AIT Barracks       TRADOC
                                     Complex 2, Phase
                                     II.
     1162160      DPW.............  Training Barracks  TRADOC
                                     Complex VIII,
                                     Phase 2.
     1275019      DPTM............  Engagement Skills  TRADOC
                                     Simulator
                                     (Training
                                     Support Center).
     1378185      DPW.............  Permanent Party    IMCOM
                                     Barracks Ph 2 on
                                     Indiana.
     1478609      MEB.............  Deployment         FORSCOM
                                     Railhead and
                                     Warehouse.
     1578610      MEB.............  Deployment         FORSCOM
                                     Complex at
                                     Airfield.
     1633713      USAES/DOL/Joint.  Dining Facility    IMCOM
                                     TA-244.
     1775475      USAMPS/USMC.....  Marine/MP EVOC     TRADOC
                                     Driving Range.
     1870362      USAES...........  Joint Assault      TRADOC
                                     Bridge & Armored
                                     Breach Vehicle.
     1973998      MWR.............  Fitness Center,    IMCOM
                                     MANSCEN.
     2075095      MEB.............  Supply Support     FORSCOM
                                     Activity
                                     Warehouse.
     2169357      DPW.............  Installation       IMCOM
                                     Infrastructure
                                     Upgrades.
     2251908      USAES...........  Engineering Veh    AMC
                                     Maint Facility--
                                     TA-244.
     2358904      USACBRNS........  58th Trans Bn Veh  AMC
                                     Maint Facility.
     2462560      DOL.............  Warehouse          IMCOM
                                     Facilities Phase
                                     1.
     2575675      RMD.............  Revitalize         TRADOC
                                     Modified Record
                                     Fire Range, Rg
                                     20.
     2619555      USAES...........  Combat Bridge      TRADOC
                                     Complex TA-250.
     2725927      USAES...........  Sapper Leader      TRADOC
                                     Course Complex.
     2875676      USAMPS/RMD......  Scout/             FORSCOM
                                     Reconnaissance
                                     Gunnery Complex.
     2971621      RMD.............  Explosive          TRADOC
                                     Ordinance
                                     Clearance Agent
                                     (EOCA) Course.
     3059546      USAMPS..........  USA MPS Crime      TRADOC
                                     Scene
                                     Investigation
                                     Facility.
     3175660      DES.............  Fire Station No.   IMCOM
                                     3 and Admin.
                                     Building.
     3265680      MEB.............  5th EN BN Bn and   FORSCOM
                                     Co Operations.
     3319551      USAES...........  Field Engineer     TRADOC
                                     Complex Rg 33.
     3475705      DPW.............  43rd AG Barracks,  TRADOC
                                     Classrooms.
     3559547      MARINE..........  Vehicle Maint      TRADOC
                                     Facility--USMC.
     3675708      USAMPS..........  Large MOUT.......  TRADOC
     3761218      NCOA............  NCOA Training      TRADOC
                                     Complex.
     3865418      USAES...........  Vehicle Wash       IMCOM
                                     Facility at TA-
                                     244.

         PROJECTS ABOVE THIS WILL BE SUBMITTED FOR FISCAL YEAR 2017.
        PROJECTS BELOW THIS LINE REMAIN AS ON THE LIST FOR SUBMISSION
                               IN FUTURE YEARS.

     395          MARINE..........  Consolidated       TRADOC
                                     Marine
                                     Maintenance
                                     Training
        2                            Facility.
     405          MSCoE...........  International      TRADOC
                                     Student Liaison
                                     Office.        5
     417          USAMPS/RMD......  Range 13-3 Story   TRADOC
                                     Shoot House. 
        5
     425          DPW.............  Force Protection   IMCOM
                                     Barriers. 
        8
     435          DPTM............  Force Mod          IMCOM
                                     Deployment
                                     Complex.        9
     447          USAMPS..........  Joint Nonlethal    TRADOC
                                     Training Center. 
        1
     456          MEB.............  FORSCOM Engineer   FORSCOM
                                     Training Areas. 
        5
     467          CDID............  CDID Building....  IMCOM         5
     475          USACBRNS........  Joint Service      TRADOC
                                     Chemical
                                     Training Center.        8
     487          USAES...........  Warmup Shelters    IMCOM
                                     at TA-236. 
        5
     497          USAES...........  TA-244 Latrine     IMCOM
                                     and Water
                                     Facilities.        5
     507          MEB.............  4th MEB Gymnasium  IMCOM         5
     517          MEB.............  4th MEB Chapel...  IMCOM         5
     527          MEB.............  4th MEB Dining     IMCOM
                                     Facility. 
        5
     537          USAMPS..........  Forensic Science   TRADOC
                                     Training
                                     Facility.        5
     547          RMD.............  Relocate Robotic   TRADOC
                                     Training Area. 
        5
     557          MEB.............  Tank Trails--4th   FORSCOM
                                     MEB to TA-244. 
        5
     567          DPTM............  Air Traffic        IMCOM
                                     Control Tower. 
        5
     577          MEDDAC..........  Dental Clinic at   TRADOC
                                     43 AG. 
        5
     587          DPW.............  Warehouse          IMCOM
                                     Facility Phase 2. 
        5
     597          DPW.............  Range Road         IMCOM
                                     Improvements
                                     Phase 1.        5
     607          DPW.............  Upgrade            IMCOM
                                     Constitution
                                     Avenue Bypass.        5
     616          EOC.............  Emergency          IMCOM
                                     Operations
                                     Center/Post HQ.        5
     626          DOL.............  Logistics          IMCOM
                                     Maintenance
                                     Facility.        5
     635          MWR.............  Pippen Youth       IMCOM
                                     Center. 
        9
     646          MEB.............  Operational        FORSCOM
                                     Readiness
                                     Training Center.        2
     656          DES.............  Directorate of     IMCOM
                                     Emergency
                                     Services.        0
     667          RMD.............  TA-236 Classroom   TRADOC
                                     (Driving Skills
                                     Pad).        5
     676          USAMPS..........  DA Police Academy  TRADOC
                                     Facility. 
        2
     685          DPW.............  Improve/Widen FLW  IMCOM
                                     1. 
        2
     697          DENTAC..........  Dentac             IMCOM
                                     Administrative
                                     Facility.        5
     707          DPW.............  Education Center.  IMCOM         7
     717          DPW.............  Band Building....  IMCOM         8
     726          DPW.............  Soldier Readiness  IMCOM
                                     Processing
                                     Center.        5
     737          DOL.............  Ammunition         AMC
                                     Bunkers. 
        8
     745          DPW.............  Training Barracks  TRADOC
                                     Complex IV,
                                     Phase 1.        2
     756          DPW.............  Training Barracks  TRADOC
                                     Complex IV,
                                     Phase 2.        2
     765          DPW.............  Training Barracks  TRADOC
                                     Complex V, Phase
                                     1.        2
     776          DPW.............  Training Barracks  TRADOC
                                     Complex V, Phase
                                     2.        2
     785          DPW.............  Training Barracks  TRADOC
                                     Complex VII,
                                     Phase 1.        5
     796          DPW.............  Training Barracks  TRADOC
                                     Complex VII,
                                     Phase 2.        2
     805          DPW.............  Training Barracks  TRADOC
                                     Complex IX,
                                     Phase 1.        5
     816          DPW.............  Training Barracks  TRADOC
                                     Complex IX,
                                     Phase 2.        2
     825          DPW.............  Training Barracks  TRADOC
                                     Complex X, Phase
                                     1.        5
     836          DPW.............  Training Barracks  TRADOC
                                     Complex X, Phase
                                     2.        2
     847          DPW.............  AIT Complex 3, Ph  TRADOC
                                     1. 
        7
     857          DPW.............  AIT Complex 3, Ph  TRADOC
                                     2. 
        7
     867          DPW.............  AIT Complex 3, Ph  TRADOC
                                     3. 
        7
------------------------------------------------------------------------
       Approved/Disapproved.
       David E. Quantock, Major General, USA, Commanding. Date: August
         25, 2010.

                              ----------                              


      Whiteman Air Force Base--Priority List and Current Missions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              


                           MISSOURI NATIONAL GUARD--LONG RANGE CONSTRUCTION PLAN 2010
----------------------------------------------------------------------------------------------------------------
            Project
Priority     number           City               Name              Type            Facility            FED
----------------------------------------------------------------------------------------------------------------
      1290186A       Springfield......  Readiness Center.  MILCON..........  29809-00001.....      $14,442,000
      2290117A       Kansas City,       Readiness Center.  MILCON..........  29B42-00001.....       13,095,000
                      North.
      3290221A       WAFB.............  AASF PH II.......  MILCON..........  29B60-AASFW.....       13,794,000
      4290179A       North St. Louis..  Armed Forces       MILCON..........  29C64-00001.....       12,914,000
                                         Reserve Center.
      5290211A       Macon............  Field Maintenance  MILCON..........  29B78-OMS8A.....        5,670,600
                                         Shop.
      6290222A       Fort Leonard Wood  RTI Phase II.....  MILCON..........  29C77-RTI02.....       24,871,000
      7290009A       Kansas City......  Field Maintenance  MILCON..........  29B41-OMS1A.....       17,093,000
                                         Shop.
      8290219A       Macon............  Land Acquisition.  MILCON..........  29B78-1LAND.....        3,000,000
      9290187A       Springfield......  Field Maintenance  MILCON..........  29C20-OMS16.....        5,709,400
                                         Shop.
     10290109A       Springfield......  AVN AVCRAD EXP/    MILCON..........  29D01-00001.....       51,533,000
                                         ALT PHASE II.
     11290111A       Springfield......  AVN AVCRAD EXP/    MILCON..........  29D01-00001.....       39,368,000
                                         ALT PHASE IV.
     12290223A       Camp Crowder.....  Barracks #3......  MILCON..........  29155-00753.....        1,500,000
     13290224A       Camp Crowder.....  Barracks #4......  MILCON..........  29155-00754.....        1,500,000
----------------------------------------------------------------------------------------------------------------
       Stephen L. Danner, Brigadier General, Missouri National Guard, the Adjutant General. Date: March 30,
         2010.

    Senator Johnson. The Army's request for MILCON, family 
housing, and base realignment and closure (BRAC) is $5.3 
billion, 33 percent less than the fiscal year 2011 request. 
That is a very large reduction and I hope the panel will 
address some of the reasons for it. I note that the Army has a 
number of major initiatives underway that are not reflected in 
this budget, but will impact future MILCON requirements. These 
include the decision to retain three brigade combat teams in 
Europe instead of four, and the Secretary's announcement of a 
reduction of 27,000 in Active Army end strength by 2015. I will 
be very interested to hear how the Army is preparing to meet 
these challenges.
    Senator, Kirk, would you care to make an opening statement?

                     STATEMENT OF SENATOR MARK KIRK

    Senator Kirk. Thank you, Mr. Chairman and I am very happy 
to be here in my first time role as a ranking member.
    I, too, share your concerns about the implications of the 
Department's April 8 decision on the brigade combat teams in 
Europe and so my specific question will be the implications for 
Schweinfurt and Bamberg and what that means for this 
subcommittee and this future budget.
    Also looking at the Government Accountability Office report 
on our requirements, in general, I, in my experience, sort of 
see Europe becoming a huge military gas station for onward 
deployment to Unified Protector or New Dawn operations or 
Operation Enduring Freedom. We do have a 27,000-man reduction 
and so it's the impact on the MILCON budget is something that I 
would like to hear about.
    We have expressed our concerns about the full-tour norm 
proposal for Korea, which looks extraordinary expensive. And 
when I have seen the--also the move that has no real 
controversy from the Seoul area to the Camp Humphreys area, and 
I was struck in my preparation for this hearing that the 
overseas housing allowance for Seoul is $3,800 per soldier, per 
month, but the Camp Humphreys number is $4,200 and that 
surprised me, given the relocation.
    It does appear that, as the Army is becoming much smaller, 
it may almost be Rumsfeldian in its level as we go back to 
that. And I would like to see a longer term plan, because it 
does appear that the Army will be much heavier on aviation 
brigades, air defense artillery, including theater high-
altitude area defense, and the personnel to support that.
    I also looked at the Air Force side, which we are going to 
have in the second panel, and looking for an Andersen Master 
Plan, my team gave us the original one, which is kind of 
chamber of commerce-esque, but there is one chart in here and 
as I did with our Office of the Secretary of Defense folks, to 
lay out the more comprehensive chart for Guam to see if we 
could get that, my final concern with regard to the Air Force 
is the growing role of unmanned aerial vehicle systems and 
looking at an unmanned beddown plan that also includes the Air 
National Guard, and see if we could have that emerge from the 
hearings.
    [The information was not available at press time.]
    And with that, Mr. Chairman, back to you.
    Senator Johnson. Secretary Hammack, General Boozer, General 
Carpenter, and Mr. Snyder, thank you again for appearing before 
our subcommittee. Your prepared statements will be placed in 
the record, so I encourage you to summarize your remarks to 
allow more time for questions.
    Secretary Hammack, please proceed.

              SUMMARY STATEMENT OF HON. KATHERINE HAMMACK

    Ms. Hammack. Thank you, Chairman Johnson, Senator Kirk, and 
other members of the subcommittee.
    We greatly appreciate your support of the Army's MILCON 
programs. These investments have provided our soldiers the 
facilities they need to fight in two wars and hopefully return 
from two wars. But at the same time, we are working to reduce 
our energy footprint and be good stewards of the environment.
    I do want to talk briefly about the impact that a 
continuing resolution has upon our ability to enact the fiscal 
year 2011 MILCON budget. Currently, we have $1.9 billion in 
projects that are ready to award. These are projects that have 
been bid, they are thoroughly designed, and some of the bids 
are aging.
    Unfortunately, these are projects, since we have been 
unable to award to date, that are jobs waiting to be awarded. 
And these are constituents in your States: $300 million in 
Alaska, $198 million in Texas, and I could go on. Every State 
of just about every member on this subcommittee has projects 
that are waiting to be awarded. So I ask for your support to 
enact legislation today that enables us to move forward with 
fiscal year 2011.
    But keep in mind that this does not put our fiscal year 
2012 projects in jeopardy. Even some of the phased projects are 
able to be phased together and in fact there may even be 
efficiencies by grouping these closer together. So we would 
hope, not only that you enact legislation to enable us to 
proceed with fiscal year 2011, but that our fiscal year 2012 
budget is approved in an expeditious manner so that we can 
proceed with that.
    As you said, we did submit written statements, so I will 
focus on only a few areas, the first being MILCON, the second 
efficiencies, and the third being energy and the environment.
    As you stated, our budget is $5.3 billion for MILCON in 
fiscal year 2012, and that is a 33-percent reduction or a $2.6 
billion reduction from the previous year. A portion of that, 
approximately $1 billion of that reduction comes from BRAC, and 
the fact that we are completing BRAC and will be complete by 
September 15 of this year means that we are not asking for more 
MILCON dollars for BRAC. Another portion has to do with us 
completing programs, such as the barracks buyout or the Army's 
growth to 45 brigade combat teams. We are completing those 
projects.
    But we did implement an efficiency in deferring $1.4 
billion in construction. And what we deferred were projects 
that we considered to be low to medium risk that, to impacting 
mission, are not mission-critical facilities. They are 
important to the Army and we are reevaluating everything for 
the fiscal year 2013 program year.
    One of the things we are doing for fiscal year 2013 is 
reexamining our facility investment strategy. We are looking at 
the kinds of facilities we build, we are looking at the energy 
efficiency of the facilities, we are looking at the size of the 
facilities and we are also looking to invest more money in 
sustainment, restoration, and modernization so we can make 
better use of facilities that we already have. So although this 
is a reduced MILCON request for us, we do not feel that it 
jeopardizes the Army mission.
    We have also returned $1 billion over the last 2 years from 
bid savings. We have seen, in this economic decline, that the 
cost of constructing the projects is lower than the bid or the 
programmed amount. So we have seen savings that we are 
returning.

                              BID SAVINGS

    We have retained a small portion of the bid savings, and 
those we are using for unexpected requirements such as some of 
the problems we saw at Fort Leonard Wood where we had to 
rebuild some facilities because of tornado damage, we had some 
other emergency requirements in the Southwestern United States, 
some are going to energy efficiency or other unexpected 
reprogramming requests.
    We are examining all solutions, and we are looking for 
efficiencies, and we are looking for cost savings.
    In energy, we are building more efficient structures, more 
efficient power generation, and we are also looking at the 
efficiency of vehicles that we are investing in because we are 
aware that efforts to reduce energy here in the United States 
and at home station also has effect on how we use energy in 
contingency operations.
    Our cost for energy is approximately $4 billion a year and 
so we are focused on operational energy savings as well as we 
invest in more efficient structures, vehicles, and other 
technologies for our soldiers.
    The Army environmental program needs an investment of $1.4 
billion to ensure that we have adequate environmental resources 
to support the mission. Some of this is going to BRAC so that 
we are able to conduct remediation efforts so that the 
properties can be utilized by the local community for a 
productive purpose.

                           PREPARED STATEMENT

    I would like to give time for the fellow panel members to 
talk, so in close, I look forward to working closely with you 
and the subcommittee and answer any questions you might have. 
Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Katherine Hammack
                              introduction
    Good afternoon Chairman Johnson, Senator Kirk, and members of the 
subcommittee. I appreciate the opportunity to explain the Army's fiscal 
year 2012 budget needs and requirements.
    The Army's fiscal year 2012 installations management budget request 
will continue to invest in facilities infrastructure required to 
support highly visible and synchronized initiatives of base realignment 
and closure (BRAC), growth of the force to 45 brigade combat teams with 
an end strength of 547,400 soldiers, transformation to a globally 
postured and versatile modular force, and the Reserve components 
transformation from a strategic force to an operational force. Your 
subcommittee's commitment to our soldiers, families, and civilians and 
support of the Army's military construction (MILCON) program is deeply 
appreciated. The Army's strength is its soldiers--and the families and 
Army civilians who support them. They are and will continue to be the 
centerpiece of our Army.
    The level of investment required to complete Grow the Army (GTA), 
global defense posture realignment (GDPR), and BRAC is declining. This 
permits the Army to focus on the funding to recapitalize and modernize 
legacy facilities, construct new facilities to eliminate deficit 
requirements, such as quality of life, and complete both permanent 
party and training barracks buy-out programs. Continued timely and 
predictable funding is critical as we transition from a period of 
prolonged conflict to one of increased stability while continuing to 
focus on rebalancing the force and maintaining a combat edge developed 
through a decade of war.
                  impacts of the continuing resolution
    Under the current continuing resolutions, the Army is unable to 
proceed with the MILCON projects we requested more than 1 year ago--
projects that are needed to continue the momentum required to meet our 
goals. We have approximately $1.8 billion of Army MILCON projects--
across all components--that are ready to award pending receipt of an 
appropriations bill or new start authority. As long as new starts are 
prohibited, we risk increased cost to re-advertise projects, shortened 
construction seasons--especially in northern climes, and delays to 
ongoing consolidation and stationing actions. So, I strongly urge the 
subcommittee to work hard to pass the fiscal year 2011 appropriation 
bills.
                                overview
    The Army's fiscal year 2012 President's budget requests $5.3 
billion for MILCON, Army family housing (AFH), and BRAC, which is $2.6 
billion less or a 33-percent reduction from the fiscal year 2011 
request. This represents 3.6 percent of the total Army budget. Of the 
$5.3 billion request, $3.2 billion is for the Active Army, $774 million 
is for the Army National Guard, $281 million is for the Army Reserve, 
$300 million is for BRAC, and $682 million is for AFH. Although the 
overall MILCON funding level declines due to completion of BRAC 
construction and reduced investments in major initiatives such as GTA 
and GDPR, the Army continued to follow the ``pillars of priority'' in 
development of the fiscal year 2012 MILCON program which supports Army 
imperatives of sustain, prepare, reset, and transform.
    The five pillars of priority are the foundation of the MILCON 
program. The pillars address all categories of facilities in the Army 
facilities portfolio for Active and Reserve component forces. The 
pillars are:
      Global Defense Posture Realignment/Grow the Army.--GDPR 
        construction provides facilities to ensure Army forces are 
        properly positioned worldwide in support of the National 
        Military Strategy. GTA supports the fiscal year 2013 Army end 
        strength of 1,111,600 (547,000--Active Army; 358,000--Army 
        National Guard; and 206,000--Army Reserve) necessary to 
        increase Active component dwell time to 1:2 years and Reserve 
        component dwell time to 1:4 years. Construction provides 
        facilities for brigade combat teams and combat support/combat 
        service support units activated as part of GTA. The Secretary 
        of Defense recently announced a reduction of 27,000 in Active 
        Army end strength planned for 2015. Unit level details of this 
        reduction, and therefore impacts to facilities, will not be 
        known for some time.
      Transformation.--Supports the Army's transformation to a modular 
        force, enables critical force structure initiatives, and 
        eliminates inadequate permanent party and trainee barracks. The 
        last inadequate permanent party spaces are planned to be 
        removed after the new barracks are fully occupied in fiscal 
        year 2015, if we have new start authority for our fiscal year 
        2011 projects.
      Modernization.--Supports ongoing investment in recapitalization 
        of operations infrastructure and quality of life facilities.
      Training Support.--Supports ongoing investment in modernization 
        and revitalization of Army training ranges, training centers, 
        and supporting infrastructure.
      Strategic Readiness.--Supports the modernization and 
        recapitalization of the Army's industrial base, pre-positioned 
        stock facilities, and transportation infrastructure.
    In addition to the $5.3 billion investment in our MILCON programs, 
the Army is sustaining its existing facilities by requesting $3.4 
billion in the President's budget for sustainment, restoration, and 
modernization and demolition. The request is $2.5 billion for the 
Active Army, $618 million for the Army National Guard, and $255 million 
for the Army Reserve.
    The fiscal year 2012 base operations support (BOS) program request 
is $9.3 billion (Active Army--$7.7 billion; Army Reserve--$0.6 billion; 
Army National Guard--$1 billion), an increase of $181 million more than 
the President's fiscal year 2011 budget request and a decrease of $1.5 
billion from fiscal year 2010 execution. The Army anticipates lower BOS 
requirements associated with efficiencies, installation closures 
associated with BRAC and the missions transferred to other services 
under joint basing. BOS is vital in all aspects of mission readiness 
and training, provides for operating and maintaining installations that 
serve as our Nation's power projection platforms, and provides 
essential services and programs promoting quality of life for soldiers, 
families, and civilians--essentially, the Army installations equate to 
the Army's home and workplace for soldiers, family members, and 
civilians.
    The Army is executing a tightly woven plan integrating BRAC, GDPR/
GTA, and transformation to a modular force as facilitated by MILCON, 
sustainment, restoration, and modernization, and BOS. The strategy 
includes aligning facilities to support a U.S.-based force structured 
as an expeditionary Army; completing facilities and moving personnel to 
comply with BRAC 2005 law by 2011; and completing GDPR/GTA by 2013. 
Facilities modernization for modular force units converted from the 
legacy force structure extends beyond 2016. The fiscal year 2012 MILCON 
request is crucial to the success of the Army's strategic imperatives 
to sustain, prepare, reset, and transform the force.
                    fiscal year 2012 budget request
Military Construction, Army
    The Active Army fiscal year 2012 MILCON request is for $3,236 
million (for appropriation and authorization of appropriations) to 
support the army imperatives of sustain, prepare, and transform.
    Grow the Army ($164 Million/5 Percent).--The GTA request in fiscal 
year 2012 funds four projects. The total includes $137 million for 
operations facilities, $23 million for a training barracks, and $3.6 
million for one operational support facility. These facilities are 
essential to support growth in the Army's combat support and combat 
service support force structure and establish the appropriate training 
support infrastructure for a 45-brigade combat team Active Army.
    Global Defense Posture Realignment ($178 Million/6 Percent).--The 
request includes $80 million for barracks, an entry control point, and 
the third phase of the drainage system at Bagram Air Base, as well as 
$49 million for a brigade complex at Fort Bragg as part of the Army 
Patriot units' global realignment, and $49 million for a maintenance 
facility at Fort Leonard Wood.
    Transformation ($1.165 Million/36 Percent).--The fiscal year 2012 
request of $639 million supports the stationing of units in support of 
weapons systems; theater high-altitude area defense; joint land attack 
cruise missile defense elevated netted sensor; combat aviation 
brigades; and enhanced range multipurpose unmanned aerial vehicle 
units. Another $526 million will provide permanent operations and 
maintenance facilities and barracks to support the conversion of 
existing forces into new modular force units for the Active component. 
The Army strategy is to use existing facility assets to support 
transformation where feasible and program new construction projects 
when existing facilities are inadequate.
    Barracks Modernization ($296 Million/9 Percent).--The fiscal year 
2012 request will provide for 3,482 new permanent party barracks spaces 
that will meet Department of Defense ``1 + 1'' or equivalent standard 
and complete the permanent party barracks buyout program by fiscal year 
2013 and beneficial occupancy by fiscal year 2015. In addition to the 
barracks modernization program, additional barracks projects are 
included in the fiscal year 2012 request that support GTA, 
transformation, and modernization pillars. These projects are located 
at Joint Base Lewis-McChord, Forts Bliss, Carson, and Knox, Germany, 
Honduras, and Korea. The total fiscal year 2012 investment in permanent 
party barracks is $562 million.
    Training Barracks Modernization ($59 Million/2 Percent).--The 
fiscal year 2012 request will provide 1,140 new training barracks 
spaces for our soldiers that meet applicable standards. One trainee 
barracks complex is at Fort Jackson. In addition to the training 
barracks modernization program, a second trainee barracks complex at 
Fort Benning is funded under the GTA pillar. The total fiscal year 2012 
investment in training barracks is $82 million.
    Modernization ($685 Million/21 Percent).--The fiscal year 2012 
request consists of 30 projects with investments of $258 million for 
operations facilities, $321 million for operational support facilities, 
and $106 million for quality-of-life projects.
    Training Support ($340 Million/11 Percent).--Training support 
facilities include training ranges to support multiple weapon systems, 
land acquisitions, and other soldier training facilities.
    Strategic Readiness ($74 Million/2 Percent).--Fiscal year 2012 
represents the first year the Army will invest in industrial base and 
deployment facilities under the Strategic Readiness Initiative. Prior 
to fiscal year 2012, these types of facilities fell under general 
recapitalization and modernization of aging facilities. Five 
transportation infrastructure projects will be constructed to support 
railhead, deployment, and supply operations, as well as a Maneuver 
Systems Sustainment Center project at Red River Army Depot.
    Other Support Programs ($275 Million/8 Percent).--The fiscal year 
2012 budget includes $230 million for planning and design. As executive 
agent, the Army also provides oversight of design and construction for 
projects funded by host nations. The fiscal year 2012 budget requests 
$25 million for oversight of host nation funded construction for all 
services in Japan, Korea, and Europe. The budget request also contains 
$20 million for unspecified minor construction to address unforeseen 
critical needs.
Military Construction Efficiencies
    The Army decremented the Active Army program by $200 million in 
fiscal year 2012. Although described as an efficiency, the decrement 
action initiates the Army's relook of its facilities investment 
strategy--a strategy that will decrease new construction and increase 
use and maintenance of the current inventory of real property in a 
manner that best supports the Army's mission.
    Over the next months the Army will assess an increased use of the 
Army's restoration and modernization funding program to complement 
MILCON in a manner that optimizes scarce investment dollars. If after 
reassessment, the decremented projects are found to be mission critical 
MILCON requirements, they will be inserted back into the program at the 
next opportunity.
Military Construction, Army National Guard
    The Army National Guard fiscal year 2012 MILCON request of $774 
million (for appropriation and authorization of appropriations) is 
focused on GTA, modernization, transformation, training support, and 
other support programs.
    Grow the Army ($101 Million/14 Percent).--The fiscal year 2012 
budget request includes $101 million for 11 energy-efficient readiness 
centers that will support the Army National Guard's end strength growth 
and ability to react to high levels of force deployment.
    Modernization ($198 Million/25 Percent).--The Army National Guard 
budget request also includes $198 million to replace 11 obsolete and 
energy-inefficient readiness centers. There are five readiness centers 
and one Armed Forces Reserve center, one maintenance facility, one Army 
aviation support facility, one U.S. Property and Fiscal Office, and one 
utilities replacement project that will provide modernized facilities 
to enhance the Guard's operational readiness.
    Transformation ($198 Million/25 Percent).--The budget request 
offers the Army National Guard the opportunity to reach higher levels 
of readiness by equipping Army National Guard units on a comparable 
level with the Active component. The request is comprised of 10 
projects which include three tactical unmanned aircraft system 
facilities, five readiness centers, one Army aviation support facility, 
and one field maintenance shop.
    Training Support ($245 Million/32 Percent).--In fiscal year 2012, 
the Army National Guard is requesting $245 million for 16 projects 
which will support the training of its operational force. These funds 
will provide the facilities soldiers require as they train, mobilize, 
and deploy. Included are five operations readiness and training 
complexes, seven range projects, one maneuver area training and 
equipment site, one railhead expansion and container facility, and two 
deployment processing facilities.
    Other Support Programs ($32 Million/4 Percent).--The fiscal year 
2012 Army National Guard budget also contains $20 million for planning 
and design of future projects and $12 million for unspecified minor 
MILCON to address unforeseen critical needs.
Military Construction, Army Reserve
    The Army Reserve fiscal year 2012 MILCON request for $281 million 
(for appropriation and authorization of appropriations) is for 
modernization, training support, strategic readiness, and other support 
programs.
    Modernization ($216 Million/77 Percent).--In fiscal year 2012, the 
Army Reserve will invest $216 million in facilities that prepare our 
soldiers for success in current operations. The construction of 10 new 
Army Reserve centers and one Armed Forces Reserve center will provide 
the modernized training classrooms, simulations capabilities, and 
maintenance platforms that support the Army Force Generation cycle and 
the ability of the Army Reserve to provide trained and ready soldiers 
for Army missions when called.
    Training Support ($28 Million/10 Percent).--The budget request of 
$28 million provides for three ranges that enable soldiers to hone 
their combat skills. It also provides for construction of the final 
phase of a noncommissioned officer academy classroom/training billets 
complex that, when completed, will allow for a modernized training 
environment for training.
    Strategic Readiness ($5 Million/2 Percent).--The request includes 
$5 million for a containerized loading facility supporting mobilization 
and demobilization missions of the Reserve component.
    Other Support Programs ($32 Million/11 Percent).--The fiscal year 
2012 Army Reserve budget request includes $29 million for planning and 
design of future year projects and $3 million for unspecified minor 
MILCON to address unforeseen critical needs.
Army Family Housing
    The Army's fiscal year 2012 budget includes $681.8 million for the 
Army's investment in and operation of its worldwide inventory of family 
housing assets. The Army relies first on the local economy to provide 
housing for our soldiers. When housing on the economy is not available, 
the Army provides housing by various means including Government-owned, 
privatized, and leased housing. The Army has successfully privatized 98 
percent of its housing assets inside the United States, while overseas 
we primarily house families in Government-owned and leased quarters.
    Residential Communities Initiative.--In 1999, the Army began 
privatizing housing assets and the Residential Communities Initiative 
(RCI) continues to provide quality housing which soldiers and their 
families and senior single soldiers can proudly call home. The Army 
leverages appropriated funds and existing housing by engaging in 50-
year partnerships with nationally recognized private real estate 
development, property management, and home builder firms to construct, 
renovate, repair, maintain, and operate housing communities.
    The RCI family housing is in 44 locations, with a projected end 
state of more than 85,000 homes--98 percent of the on-post family 
housing inventory inside the United States. Initial construction and 
renovation investment at these 44 installations is estimated at $12.7 
billion over a 3- to 14-year initial development period, which includes 
the Army's contribution of close to $2 billion. During the 12 years 
since 1999 through 2010, our partners have constructed more than 25,000 
new homes, and renovated another 19,000 homes.
    The RCI program for senior unaccompanied housing includes four 
installations for a total of 1,394 accommodations for senior single 
soldiers in grade staff sergeant and above including officers at 
locations where there is a deficit of adequate accommodations off post. 
The four locations are Forts Irwin, Drum, Bragg, and Stewart.
    Army Family Housing Construction ($186.9 Million/27 Percent).--The 
Army's fiscal year 2012 family housing construction request is $186.9 
million (for authorization of appropriation, and appropriation) to 
continue our significant investment in our soldiers and their families. 
This supports our goal to sustain Government-owned housing and 
eliminate our remaining inadequate inventory at enduring overseas 
installations.
    The family housing construction program includes $76 million for 
traditional MILCON to provide 128 new homes in Germany, and to acquire 
10 acres of land in Brussels for future construction so that the Army 
can eliminate seven high-cost leased homes that cost the Army more than 
$1 million annually. The request also includes $103 million for 
improvements to 276 family homes in Germany, and $7.9 million for 
planning and design.
    Army Family Housing Operations ($494.8 Million/73 Percent).--The 
Army's fiscal year 2012 family housing operations request is $494.8 
million (for appropriation and authorization of appropriations). This 
account provides for operations, utilities, maintenance and repair, 
leased family housing, and management of RCI. This request supports 
almost 16,000 Army-owned homes, in the United States and in foreign 
countries, as well as almost 8,000 leased residences and provides 
Government oversight of more than 80,000 privatized homes.
    Operations ($85.4 Million).--The operations account includes four 
subaccounts--management, services, furnishings, and a small 
miscellaneous account. All operations subaccounts are considered ``must 
pay accounts'' based on actual bills that must be paid to manage and 
operate the AFH-owned inventory.
    Utilities ($73.6 Million).--The utilities account includes the cost 
of delivering heat, air conditioning, electricity, water, and 
wastewater support for family housing units. The overall size of the 
utilities account is decreasing in proportion with the reduction in 
supported inventory due to RCI.
    Maintenance and Repair ($105.7 Million).--The maintenance and 
repair account supports annual recurring projects to maintain and 
revitalize AFH real property assets. Since most family housing 
operational expenses are fixed, maintenance and repair is the account 
most affected by budget changes. Funding reductions result in slippage 
of maintenance projects that adversely impact soldier and family 
quality of life.
    Leasing ($204.4 Million).--The leasing program is another way the 
Army provides adequate housing for families. The fiscal year 2012 
budget includes funding for a total of 9,036 housing units, including 
1,080 existing section 2835 (``build-to-lease''--formerly known as 801 
leases), 1,828 temporary domestic leases in the United States, and 
6,128 leased units overseas.
    Privatization ($25.7 Million).--The privatization account provides 
operating funds for management and oversight of privatized military 
family housing in the RCI program. RCI costs include civilian pay, 
travel, and contracts for environmental and real estate functions, 
training, real estate and financial consultant services, and oversight 
to monitor compliance and performance of the overall privatized housing 
portfolio and individual projects.
                      base realignment and closure
Base Realignment and Closure 2005
    BRAC 2005 is a massive undertaking, requiring the synchronization 
of base closures, realignments, MILCON, and renovation, unit 
activations and deactivations, and the flow of forces to and from 
current global commitments. BRAC 2005 encompassed:
  --102 Army recommendations;
  --affected more than 150,000 soldiers and civilians, and their family 
        members;
  --330 construction projects, which includes 125 Armed Forces Reserve 
        centers;
  --closure of 12 Active component installations, one Army Reserve 
        installation, 387 National Guard readiness and Army Reserve 
        centers, and eight leased facilities; and
  --more than 1,100 discrete actions.
    BRAC 2005 established training centers of excellence, joint bases, 
a human resources center of excellence, and joint technical and 
research facilities.
    While the Department is facing scheduling challenges in a few 
cases, we are working diligently to ensure we satisfy our BRAC legal 
obligations. Army senior leaders continue to intensely manage these 
recommendations and are putting in place mitigation procedures to 
ensure we meet our legal obligations. Currently, the Army has completed 
23 of 102 recommendations and awarded 327 MILCON projects, of which 154 
have been completed. The Army has initiated 850 of 1,147 actions and 
completed 393. The Army has closed six Army installations, one Army 
Reserve installation, 42 Army Reserve centers, and disposed of 19,067 
acres associated with the closures. The Army is on schedule to complete 
the remaining 754 actions and 173 projects in accordance with the BRAC 
law.
    The Army fiscal year 2012 budget request for BRAC 2005 is $229 
million. The budget request is critical to the success of the Army's 
BRAC 2005 initiative and does not contain funding for new construction 
projects. The funding request includes $116.9 million in operation and 
maintenance to support facility caretaker requirements. In fiscal year 
2012, the Army will continue environmental closure, cleanup, and 
disposal of BRAC properties. These activities will continue efforts 
previously ongoing under the Army Installation Restoration Program and 
will ultimately support future property transfer actions. The budget 
request for BRAC environmental programs is $112.3 million, which 
includes munitions and explosives of concern and hazardous and toxic 
waste restoration activities. These actions do not occur at the expense 
of protecting human health and the environment from past activities 
that may have resulted in contamination. BRAC funds ensure human health 
and environmental protectiveness first, while also enabling the timely 
transfer of acreage for productive community re-use.
Base Realignment and Closure 95
    The Army is requesting $70.7 million in fiscal year 2012 for prior 
BRAC rounds. The request includes $4.6 million for caretaking 
operations and program management of remaining properties and $66.1 
million for environmental restoration to address environmental 
restoration efforts at 280 sites at 36 prior BRAC installations. To 
date, the Army has spent $3.1 billion on the BRAC environmental program 
for installations impacted by the previous four BRAC rounds. The Army 
has disposed of 177,842 acres (85 percent of the total acreage disposal 
requirement of 209,291 acres), with 31,448 acres remaining. As a 
result, the Army estimates approximately $14.5 billion in savings 
through 2010--and nearly $1 billion in recurring, annual savings from 
prior BRAC rounds.
                           energy investments
    Army installations and facilities require secure and uninterrupted 
access to energy. Dependence on fossil fuels and a vulnerable electric 
power grid jeopardizes the security of Army installations and mission 
capabilities. Investment in renewable energy and energy-efficient 
technologies will help ensure the Army can meet mission requirements 
today and into the future. An average of 2 percent of every facilities 
construction project is invested in increased energy efficiencies.
    The Energy Conservation Investment Program (ECIP) fiscal year 2012 
program includes 10 renewable energy projects and three energy 
conservation projects for $51.5 million. The estimated average annual 
savings is projected at $4 million or 258 billion BTUs. Although ECIP 
is an annual Defense-wide appropriation ($135 million), the Army is 
taking a strategic look at requirements and developing an ECIP Future 
Years Defense Program that will provide the Army the ability to pull 
requirements forward should such an opportunity arise.
                                 energy
    The Army is moving forward to address the challenge of 
sustainability and energy security to ensure the Army of tomorrow has 
the same access to energy, water, land, and natural resources as the 
Army of today. The Army realizes that innovative, cost-effective 
solutions are critical to success. Addressing these challenges is 
operationally necessary, fiscally prudent, and mission-essential. The 
Army has implemented an energy efficiency requirement into all new 
facilities construction, renovation, and modernization requirements.
    Drive Efficiency Across the Enterprise.--The Army is investing to 
significantly reduce requirements for natural resources, to include 
energy and water, both on installations at home and in our combat 
operations. Reducing demand through efficiency improvements is often 
the cheapest and fastest way to save funds and reduce dependency. The 
easiest gallon of fuel to secure and transport is the one that is not 
required. The need to reduce energy vulnerabilities and associated 
costs is clear, given experiences in Iraq and Afghanistan. The approach 
will require a concerted effort involving a combination of new 
technologies, changes to user behavior, and conversion of ``waste'' in 
resource streams to energy with approaches that convert waste heat or 
garbage into electricity.
    Build Resilience Through Renewable/Alternative Energy.--Army forces 
must still prevail, even in the face of disruptions due to enemy 
action, weather, shifting priorities, or energy availability. Given 
this, it is prudent that the Army take steps to diversify its sources 
of energy, particularly to include renewable and alternative sources 
available both here and abroad. The Army is building resilience and 
flexibility into force capabilities to continue operating in the face 
of energy disruption. These disruptions can occur at the national, 
regional, or local level and affect bases, weapons systems, vehicles, 
and soldiers.
                              environment
    The Army fiscal year 2012 budget provides $1.4 billion for its 
Environmental Program in support of current and future readiness. This 
budget ensures an adequate environmental resource base to support 
mission requirements, while maintaining a sound environmental posture. 
Additionally, it allows Army to execute environmental aspects of re-
stationing, GDPR, and BRAC while increasing programmatic efficiencies, 
and addressing the Army's past environmental legacy.
    As a land-based force, our stewardship sustains the quality of our 
land and environment as an integral component of our capacity to 
effectively train for combat. We are committed to meeting our legal 
requirements and protecting natural and cultural resources during a 
time of unprecedented change. We are on target to meet DOD goals for 
cleaning up sites on our installations, and we continue to manage 
environmental requirements despite operating in a constrained resource 
environment.
               sustainment/restoration and modernization
    The Army continues to comply with the joint planning guidance 1 and 
has funded sustainment at 90 percent of the Office of the Secretary of 
Defense facilities sustainment model requirement. The Army views 90 
percent sustainment funding as the absolute bedrock of proper 
facilities stewardship, and is an essential objective of the Army 
facilities investment strategy. The Army has chosen not to take risk in 
the sustainment of our facility inventory valued at $326 billion. 
Sustainment is an outward and visible sign of the Army's commitment to 
providing a quality of life to our soldiers, civilians, and families 
that is consistent with their commitment to our Nation's security.
                        base operations support
    The Army fiscal year 2012 BOS request, the budget provides $1.7 
billion in support of the Army Family Covenant, which is the Army 
leadership's commitment to provide a quality of life to the soldiers 
and families that, is commensurate with their service. Other funded 
senior leadership initiatives are:
  --Army Substance Abuse Program;
  --Sexual harassment/assault response and prevention;
  --Health promotion;
  --Risk reduction and suicide prevention; and
  --Comprehensive soldier fitness.
    The Army is committed to developing a cost culture for increasing 
the capabilities of BOS programs through an enterprise approach. 
Additionally, the Army will continue to review service delivery of its 
soldier, family, and civilian programs to ensure the most efficient and 
effective means of delivery are realized.
                               conclusion
    The Army's fiscal year 2012 installations management budget request 
is a balanced program that supports our soldiers, families, and 
civilians; continued rebalancing of the force; completion of BRAC 2005 
by September 2011; continued support to Army transformation, GTA and 
GDPR initiatives, and investments in barracks buyout programs. The 
Army's facilities investment strategy will be accomplished through your 
continued commitment to timely and sustained funding of MILCON, BRAC, 
and family housing.
    In closing, we would like to thank you again for the opportunity to 
appear before you today and for your continued support for our 
soldiers, families, and civilians.

    Senator Johnson. Thank you, Secretary Hammack.
    General Boozer.

                  STATEMENT OF GENERAL JAMES C. BOOZER

    General Boozer. Mr. Chairman, Senator Kirk, I would also 
like to thank you all as well for your support.
    Thanks in large measure to the support received from this 
subcommittee, we've made great progress toward sustaining Army 
soldiers, families, and civilians, and we are regaining that 
balance that I know you have heard General Casey speak of so 
very, very often.
    This year, as you know, the Army is striving to complete 
all 1,147 actions associated with the Army's 102 BRAC 
recommendations that are necessary to fulfill our obligation 
for BRAC 2005. Construction continues on 330 projects; 165 of 
those 330 have been completed to date, as well as all the 
preparation in completing all the personnel moves, the civilian 
personnel moves mainly associated with those BRAC 
recommendations.

                      BASE REALIGNMENT AND CLOSURE

    We have spent some time identifying risk associated with 
those--with our BRAC recommendations and have identified risk 
by project, by specific project type and we have put mitigation 
strategies in place to reduce that risk so that we can keep 
BRAC implementation on track. And our senior leaders are 
actively engaged in over watch as we near the BRAC deadline of 
September 15, 2011.
    Restoring balance to our Army, though, is not an end state, 
but rather a continuous process. And that is why we have 
programmed $1.7 billion for transformation projects and $1 
billion for modernization in the President's budget request.
    Transformation projects ensure that we have the right 
modern facilities for the capability the Army is bringing to 
the fight, like conditional combat aviation brigades and the 
unmanned aerial vehicles that Senator Kirk mentioned.
    We will continue to modernize our aging and obsolete 
facilities, and will continue to make investments in areas like 
Germany and Korea.

                       EUROPEAN BASING/STATIONING

    Now, although a decision on the brigade combat teams in 
Europe was recently announced, it is critical that the projects 
in the President's budget request for fiscal year 2012 for 
Germany be appropriated. It is critical because those projects 
are not tied in any way to a brigade combat team stationing 
decision in Europe. Those were all tied to the consolidation 
plan in U.S. Army Europe that is going to yield savings as we 
close installations and concerns in Germany. So delaying the 
fiscal year 2012 Germany projects or any other further delay of 
the fiscal year 2011 budget will cause us some additional cost 
and delay some efficiencies that we could garner overseas.
    And then finally, the investment in the Guard and Reserve 
facilities has increased significantly. As you know, they are 
an integral part to our current operations. This year, more 
than $1 billion or 20 percent of the Army MILCON program is 
being invested in the Army Guard readiness centers and the Army 
Reserve centers.
    So in closing, Mr. Chairman, I would also like to thank 
this subcommittee once again for your support to our Army and 
our soldiers, and look forward to your questions and the 
discussion and dialogue this afternoon.
    Senator Johnson. Thank you, General Boozer.
    Let's turn to General Carpenter.

               STATEMENT OF GENERAL RAYMOND W. CARPENTER

    General Carpenter. Mr. Chairman, it is also great on my 
part to see a fellow South Dakotan. And for the third year in a 
row, it is my privilege to appear before this subcommittee as 
the Acting Director of the Army National Guard.
    I am here today representing 360,000-plus soldiers in the 
Guard who are on point at home and abroad for our Nation. Our 
Army National Guard is approaching a decade of war with an all-
volunteer force. We have mobilized soldiers for Operation Iraqi 
Freedom, Operation Enduring Freedom, Operation New Dawn, for 
the Balkans, the Sinai, and elsewhere in the world. More than 
478,000 soldiers have been mobilized since 9/11, and as we 
speak, we have nearly 35,000 soldiers mobilized and deployed, 
away from their homes, away from their families, their 
employers, and communities.
    Sadly, but very importantly, I would be remiss if I did not 
acknowledge the toll that this has taken. We have 10,000 
soldiers with nonbattle injuries, 5,000 wounded, and 643 who 
have sacrificed their lives.

                       ARMY NATIONAL GUARD BUDGET

    I want to assure you the Army National Guard would not be 
the operational force it is today without the support of the 
Congress and this subcommittee. I am here today to discuss the 
Army National Guard MILCON budget request for fiscal year 2012. 
That request is for $773,000 and would fund 48 MILCON projects 
in 30 States and territories. These projects include readiness 
centers, ranges, tactical unmanned aerial system facilities, 
maintenance shops, training institute facilities, and one U.S. 
Property Fiscal Office building in Washington.
    Facilities and infrastructure are key contributors to 
readiness for the homeland mission and overseas operations. And 
that infrastructure is aging. More than 40 percent of our 
readiness centers are more than 50 years old and require 
substantial modernization or total replacement to meet the 
needs of an operational force. In many cases those facilities 
not only do not meet the needs of the transformed units, but 
they also fall short of the Department of Defense (DOD), 
Federal, and State building standards in the areas of anti-
terrorism, force protection, energy efficiencies, and the 
Americans with Disabilities Act requirements.

                  EFFECTS OF THE CONTINUING RESOLUTION

    I would also like to point out, as previous panel members 
have, that because of the continuing resolution, we have been 
unable to begin to award the fiscal year 2011 construction 
contracts of $873,000 worth of projects recommended by this 
subcommittee last year. We desperately need the funding to 
replace numerous substandard facilities across the Army 
National Guard. Incidentally, one of those projects, Mr. 
Chairman, is in our home State, Watertown, South Dakota.
    It is vital that the fiscal year 2011 MILCON request is 
fully funded.
    Again, Mr. Chairman, I would like to acknowledge the 
critical role this subcommittee has played in building and 
sustaining the best Army National Guard I have seen in my 
career of more than four decades.
    I look forward to your questions and comments.
    Senator Johnson. Thank you, General Carpenter.
    Mr. Snyder.

                      STATEMENT OF JAMES L. SNYDER

    Mr. Snyder. Mr. Chairman, Senator Kirk, and distinguished 
members, it is my pleasure to be here on behalf of Lieutenant 
General Jack Stultz, the Chief of the Army Reserve, to discuss 
the MILCON program today.

                              ARMY RESERVE

    Our requests are crucial to the Army Reserve as we continue 
the most comprehensive transformation we have conducted since 
World War II. And we are using the energy of the transformation 
from a strategic force to an operational force to provide the 
Nation a very good return on their investment.

                           OPERATIONAL FORCE

    Of the 205,000 Army Reserve soldiers, about 190,000 have 
deployed since the operations have started. Today, we have 
27,000 mobilized in support of operations, and that is down 
from recent years where we've had about 30,000 to 32,000. We do 
believe we are making a good contribution to the operational 
force.

                    MILITARY CONSTRUCTION PRIORITIES

    MILCON priorities are: Army Reserve centers, training 
support facilities, and maintenance facilities, as you can 
imagine. But these are no longer just meeting places of the old 
strategic Reserve that you may remember, these are places to 
conduct training and family support group meetings and do 
collaborative planning over network simulations and so forth 
that really prepare soldiers for today's operations. And they 
require progressive readiness training through the Army force 
generation cycle, in order to be prepared to be mobilized for 
their available year. We have utilized BRAC and the Grow the 
Army (GTA) program over the last few years to transform our 
command and control posture to better support an operational 
Army Reserve. And those programs are being completed in fiscal 
year 2011, both BRAC and GTA.
    As discussed, we have 26 projects in our fiscal year 2011 
program that are on hold--10 are at the award stage, and 17 of 
those support structure that is activating in fiscal year 2012, 
so it's critical to get on with those programs, and we look 
forward to the authority.

                        FISCAL YEAR 2012 BUDGET

    The fiscal year 2012 budget request of $281 million 
supports modernization, training support, strategic readiness, 
and unspecified programs--$216 million in modernization, that 
is 11 facilities, operations center.
    Training support, about $27 million, supports, primarily, 
our regional training centers at Fort Hunter Liggett, 
California; Fort McCoy, Wisconsin; and Fort Dix, New Jersey; 
and we have a deployment facility at Fort McCoy as well. We 
have $29 million in planning and design and $3 million in 
unspecified minor as part of that package as well.
    And we are particularly proud to contribute on the energy 
front to the efforts that have been going on since 2008. And 
while we've designed for Leadership in Energy and Environmental 
Design (LEED) Silver standards, we have been able to achieve a 
number of LEED Gold and LEED Platinum standards as we complete 
the projects. And, in some cases, using renewable energy 
sources, we are able to reduce the consumption by 50 percent at 
particular facilities.
    The fiscal year 2012 program will directly support 4,400 
soldiers and families with these new facilities, and that is 
fitting with their service and sacrifice. Our citizen soldiers 
and families will continue to be the centerpiece of the Army 
Reserve, and their ability to perform their mission 
successfully depends upon your continued support.
    Again, on behalf of Lieutenant General Stultz and the 
soldiers and families of the Army Reserve, I thank you for your 
support.
    Senator Johnson. Thank you. Thank you, Mr. Snyder.
    Thank you for your opening statements. We will begin with a 
6-minute round of questions. Senators will be recognized in 
order of their arrival.

                            FORCE REDUCTION

    Secretary Hammack and General Boozer, as part of his 
efficiencies review, Secretary Gates indicated that the Army 
would likely see a reduction in forces by as much as 27,000 in 
fiscal year 2016. It is my understanding that the drawdown on 
forces will be contingent on troop withdrawals in Afghanistan 
and as part of an Army force structure review.
    What is the Army's time line for its force structure 
review? And what impact will this anticipated drawdown have on 
the Army MILCON program?
    General Boozer. Mr. Chairman, if it is okay----
    Senator Johnson. Yes.
    General Boozer [continuing]. I would like to take a stab at 
that and I really appreciate that question.
    As you know, I alluded to some of that reduction--not some 
of the reduction, but alluded to the brigade combat team 
stationing decision. But if I could just quickly--and I am a 
history major, so I am going to try to walk through the 
numbers, probably more for my benefit than yours, and talk 
through the reductions of where we are.

                              END STRENGTH

    As you know, we are currently operating under a temporary 
end strength increase of 22,000. And so that took us from our 
permanent end state of 547 and brought us up to 569.
    The Army's time line is to come off of that temporary end 
strength of 22,000 back down to the 547 by the end of 2013.
    Then the 27,000 reductions that the Secretary has talked 
about and announced, we have to work through our process. In 
the Army, we call it the total Army analysis process, where we 
take strategic guidance, and we go through a series of 
qualitative and quantitative analyses to right-size the force. 
And we will start that process this summer, even though the 
27,000 reductions aren't supposed to start until 2015. We are 
going to start that process this summer so we can lay out some 
options for the Army's senior leadership, because we have a lot 
of issues that we have to wrestle with when we take into 
consideration how we would proceed with reducing the force by 
27,000.
    Ms. Hammack. And then I would like to address your question 
as far as MILCON goes. As we enact that plan, and taking the 
force down starting in fiscal year 2015, we will be looking at 
our construction.
    One of the things to keep in mind is, because we grew so 
fast in response to the current battles that we are in, the 
current wars that we are involved in, we have soldiers that are 
working out of temporary facilities, whether they are 
relocatable facilities or other facilities that are past their 
effective use State and sub-par facilities. So as we look at 
reducing end strength, we will be looking at consolidating into 
those facilities that have the highest and best use and looking 
at reducing the amount of facilities that are older or aging or 
that are temporary facilities.
    And we will be looking at our MILCON budgets in the out 
years to ensure that we are not building structures that don't 
have appropriate use.

                           READINESS CENTERS

    Senator Johnson. General Carpenter, you mentioned the age 
of the readiness center inventory. Does the Guard have a 
modernization plan for its readiness centers and a goal for 
completion?
    General Carpenter. Senator, I believe you are aware of the 
readiness centers study that was discussed in the last session 
of the Congress. We have begun the process in terms of figuring 
out what the requirements are for that study. Unfortunately, 
the study was unfunded. We have taken $2 million from our 
fiscal year 2010 budget that was not to be expended for other 
uses and we have dedicated that toward the start of that study.
    Our effort is to look across all the readiness centers that 
we have got across all the States in the United States and rank 
order the ones that require replacement at the top and start 
working down through that list in order to modernize the 
readiness centers inside of the Army National Guard.
    So, yes, sir, we do have a plan, and we are moving out on 
it. However, it is not fully funded at this point.

                             GROW THE ARMY

    Senator Johnson. Secretary Hammack and General Boozer, how 
is it that there is a discussion in reducing force growth when 
we haven't funded MILCON for the current growth of force 
initiative? And how much MILCON does the Army have left to 
complete the growth of force initiative?
    Ms. Hammack. I don't have the exact numbers with me right 
now to complete the initiatives, but the GTA and the Global 
Defense Posture Realignment programs were both scheduled for 
completion mainly in fiscal year 2012, with a little bit left 
in fiscal year 2013.

                          EUROPEAN STATIONING

    Senator Johnson. General Boozer, on Friday DOD announced 
its intent to revise the force posture in Europe. As part of 
that announcement the Department intends to retain only three 
brigade combat teams in Europe, down from four. Now, no 
specifics of the re-stationing were offered in the press 
release even though this decision has been anticipated for 
months.
    Will the brigade combat team be re-stationed in the United 
States or will it be deactivated? How will this decision impact 
current installations at Bamberg and Schweinfurt in Germany?
    General Boozer. Yes, Chairman, thank you for that question.
    If I were to remain in my current posting here I would be 
knee deep in the analysis that we owe you. The good news is, in 
my future job, my posting in Europe as the Deputy Commanding 
General for U.S. Army Europe, I am still going to be knee deep 
in that analysis that is going to take place. We are 
certainly--in that new posting I will certainly help the Army 
with.
    And your question is a very, very good one. We have 
installations in Europe that are tagged as enduring 
installations and some that are tagged as nonenduring 
installations, I am kind of answering the question backwards in 
reference to the installations.
    Some of those installations, specifically the ones Senator 
Kirk mentioned in his opening statements, Bamberg and 
Schweinfurt, are categorized as nonenduring installations. We 
are currently using those installations, in layman's term, as 
probably swing space.
    As we consolidate installations and concerns in Europe, we 
are using Bamberg and Schweinfurt for those units or 
organizations. In fact, one of the brigades that is stationed 
in Grafenwoehr, the 172nd, some of its units are still in 
Schweinfurt, have not completed their closure into their 
permanent home which is Grafenwoehr.
    Once we understand and get senior leader guidance from the 
Army on the end state for that one brigade combat team, because 
that is a reversal from the 2004 decision to bring two back, as 
we take into consideration the force reductions that we have 
talked about, the temporary end strength of 22,000 that we have 
got to come down off of between 2013, and then this 27,000-
reduction, those decisions will all play in that.
    So we do not have an answer. That is a long way to get at 
an answer. We do not have an answer to what is going to happen 
to that brigade combat team that has been identified.
    Senator Johnson. What timeframe do you anticipate?
    General Boozer. Mr. Chairman, I believe we have, in concert 
with the total Army analysis process, we have to bring those 
options and decisions to our senior leadership before the end 
of this year, because we are going to work that 2015 stance, if 
you will, during the upcoming total Army analysis process, so 
it has got to be part of that, that holistic process.
    Senator Johnson. Thank you, General.
    Senator Kirk.

           MILITARY CONSTRUCTION BUDGET FOR FISCAL YEAR 2012

    Senator Kirk. Thank you, Mr. Chairman.
    Just note that for our legislation, the Department of 
Veterans Affairs (VA), last year, took up about $53 billion, 
and MILCON was $23 billion. And this year for the bill; it 
looks like the VA will take up $56 billion and MILCON $16.6 
billion. So MILCON was 30 percent of this bill last year; it is 
just 22 percent this year. At that rate, MILCON disappears from 
this bill in 3 years.
    Any thought about recommendation to us about reorganizing 
our committees and moving MILCON into DOD, because you are 
rapidly disappearing here?
    Ms. Hammack. Thank you for that question. We are reaching a 
steady state level. And our steady state level of investment 
and reinvestment and our facilities is around that $5 billion 
mark. After we have finished the re-stationing and corrected 
for capacity, new construction is going to be correcting for 
condition where we have aging or decaying facilities that 
require replacement.
    So we will always have a continuing need for MILCON, just 
as any other enterprise would, to manage and maintain our 
facilities. We are looking at increased investment in 
sustainment, restoration, and modernization, but there will 
always be a need for MILCON.
    Senator Kirk. All right. I would just note that--when we 
talk about new buildings for DOD and the Army, what is more 
important to you: increased combat capability or energy 
efficiency?

                          ENERGY EFFICIENCIES

    Ms. Hammack. Mission comes first, sir.
    Senator Kirk. Yes. I would like to hear that more, because 
it seems like we are really pushing energy efficiency, when it 
is great to have an energy-efficient facility, but if it is not 
yielding additional combat capability, that is----
    Ms. Hammack. I would disagree with you on that point, 
because it is mission-critical that our facilities be energy-
efficient. And if you take a look at Japan, our facilities were 
able to operate and continue to operate in light of a frail and 
dysfunctional power grid. And so we need our facilities to 
better manage the energy that is required to maintain mission--
--
    Senator Kirk. Right.
    Ms. Hammack [continuing]. And be able to operate should the 
power grid go down.
    And just in the last decade, we have seen issues, whether 
they be accident, weather-related, or acts of terror, that 
could impact our mission. So our mission is to remain viable 
and operational should there be hazards in the local community.
    Senator Kirk. Right.
    Ms. Hammack. So we view energy as mission-critical.
    Senator Kirk. Yes, although I would just say they are two 
vehicles, but would you rather go to war in a Nissan Leaf or in 
a Humvee, you know? And I would just say that in the end, 
combat capability is, I think, our primary value here that we 
are looking for in the facilities.

                        KOREA TOUR NORMALIZATION

    Can we talk about Korea and Army MILCON? Because it is a 
big swing number. Should we go with full-tour norm? What is 
your timeline on assessment for this huge bill?
    General Boozer. Yes, Senator Kirk, as you know, the 
Secretary first approved our command sponsorship of our 
families at that level at 3,740. And, to date, that is really 
the only decision that has been made that is associated with 
career tour normalization, is the command sponsorship levels, 
if you will.
    We are working toward what we call the consolidation and 
the relocation----
    Senator Kirk. Right.
    General Boozer [continuing]. Of forces north to south, from 
the Seoul area into the Daegu, Yongsan area into what we know 
as Camp Humphreys. And that----
    Senator Kirk. Do you have any idea--I would think that 
housing would be vastly more expensive in Seoul than Camp 
Humphreys, but your numbers show it is actually vastly more 
expensive in Camp Humphreys than in Seoul.
    General Boozer. Yes, sir. And you mentioned the way that we 
are going to tackle that problem for housing with our families 
is using the Humphreys Housing Opportunity Program, which is 
not using MILCON dollars, but is using an overseas housing 
allowance rate. And it is, as you mentioned, $4,200, that rate. 
That rate allows the public-private venture, if you will, to 
occur.
    And, quite frankly, in the short term, it is cheaper and 
more efficient than MILCON.

                          EUROPEAN STATIONING

    Senator Kirk. Yes. Last question. As we bring that brigade 
combat team home from Germany, I didn't really get a sense of 
when you would be bedding that, making a decision on beddown of 
that unit. When----
    General Boozer. Yes, Senator Kirk, that will occur in 2015. 
All those brigade combat----
    Senator Kirk. The decision will occur in 2015?
    General Boozer. No, I'm sorry, I misunderstood. I thought 
you were talking about the actual movement or whether we 
activate--inactivate it or moved it would be 2015. The 
decision, I believe, has to occur sometime late this fiscal 
year.
    Senator Kirk. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. I want to thank the 
panel for being here today.

                                Arsenals

    Ms. Hammack, let me start with you, if I may. I want to ask 
about arsenals. I know that there are several laws out there 
that the Congress has passed over the years, and some 
regulations, that basically encourage us to utilize our 
arsenals more fully. You are aware of those laws and 
regulations, the Arsenal Act, Defense Industrial Reserve Act, 
Army Regulation 700-90 and others. You know those better than I 
do.
    But how are we doing in terms of keeping our arsenals 
fully, workloaded and fully busy?
    Ms. Hammack. I would say they are very busy right now, but 
thank you for the question.
    Our arsenals are very busy because we are engaged in two 
conflicts right now. As we bring our soldiers home and 
disengage, the load on the arsenals will reduce. Several of our 
arsenals are right now at three shifts, so they are operating 
on a 24/7 aspect. Our peacetime load is much closer to one 
shift, 5 days a week. So we will get closer to that.
    Our arsenals are a critical resource to the military, to 
the Army, so we need to ensure that their capabilities remain 
and that investment in them remain.
    We are looking at options to offer services that could be 
coupled more closely with the public sector. We are looking at 
some realignments right now that might change their structure, 
not necessarily their location but their cost structure so that 
it would make them more competitive in the private sector.
    Senator Pryor. How would you do that, when you say to 
change their cost structure? What do you mean by that?
    Ms. Hammack. Right now many of our arsenals are operating 
both the manufacturing portion and the garrison portion coupled 
very closely together. We have an installation management 
command that manages the garrison side of our installations and 
does that for more than 150 different installations.

        INSTALLATION MANAGEMENT COMMAND'S MANAGEMENT OF ARSENALS

    We are looking at decoupling the production aspect and 
having the installation management command manage the garrison 
side of the arsenal, and we believe that will focus what the 
costs are strictly for the production capabilities. Also, the 
first couple of ones we have looked at, and we are implementing 
this on a pilot basis, are showing cost savings because 
installation management command has contracting mechanisms that 
they can then leverage.
    Senator Pryor. And do you think that those cost savings are 
what you will find at most of these locations?
    Ms. Hammack. We believe so. The final results are due in 
September.
    Senator Pryor. And what percentage of the arsenals in our 
system now are, I guess what you would call, fully work-loaded? 
I know it is an up tempo time, but do you know the answer?
    Ms. Hammack. I would have to take it for the record, but I 
believe that most of them are fully utilized. The question 
right now is, as our up-tempo decreases, how they will be 
unloaded.
    [The information follows:]
                                arsenals
    For the two manufacturing arsenals, Rock Island Arsenal Joint 
Manufacturing and Technology Center (RIA) and Watervliet Arsenal (WVA), 
the percentages are approximately 81 percent for RIA and 52 percent for 
WVA. The chemical arsenal, Pine Bluff Arsenal, is presently workloaded 
at approximately 28 percent.
    These percentages are against a full 40-hour work week, and do not 
take into account the added capacity with multiple shifts.

    Ms. Hammack. One of the things to keep in mind is, many of 
our arsenals are engaged in resetting equipment as it comes out 
of the theater. So there will be a period of time where they 
will remain or they will lag the up tempo as they work to reset 
equipment.
    Senator Pryor. Right. And, of course, we have the Pine 
Bluff arsenal in Arkansas and they have just gone through the 
big chemical demilitarization process. And my understanding is, 
we have a lot of capability there now that is really not being 
utilized because of that change of mission. So we certainly 
would appreciate you all considering Pine Bluff as you look at 
arsenals and what our needs are in the future.
    Let me ask--I guess this might be best for General 
Carpenter. And that is, on the Operational Reserve call-up 
concept. I met with Lieutenant General Stultz the other day, 
and we were talking about this and he was describing the desire 
for the Reserve components to amend title 10 to provide the 
Secretary of Defense the authority to involuntarily activate a 
limited number of selective Reserve personnel. And as I 
understand, that would allow for easier activation for 
validated, nonemergency DOD force generation requirements.
    Is that something that the National Guard supports?
    General Carpenter. Senator, I think you know the history of 
this particular issue. I believe it was in 2007 there was part 
of the National Defense Authorization Act allowed for the 
mobilization and employment of the Army Reserve in emergency 
and disaster operations. And then at the request of the 
Governors, I believe that was reversed in 2008.
    The feedback I get from the adjutant generals across the 
Nation, and as a result consistent with our Governors' wishes, 
is the Governor wants to remain responsible and in charge of 
what goes on in disaster and emergency operations inside of his 
or her State. And, right now, we, the National Guard, are 
working, in conjunction with the Council of Governors and U.S. 
Northern Command, on a process that has a critical, dual-status 
commander, a dual-hat commander, if you will, that represents 
both the title 10 forces and the title 32 forces.
    And as we work through that process to establish that, the 
Governors, the ones that I know about, feel confident that when 
that is in place they would be inclined to support what General 
Stultz has in mind.
    I believe--you know, I sit with General Stultz regularly as 
my counterpart in the Army National Guard and his position is, 
why would we call the 82nd Airborne when we have the engineer 
unit in Florida that is already there to take care of business? 
And they have done great work, Hurricane Katrina, for instance, 
as being an example.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Hutchison.

                          EUROPEAN STATIONING

    Senator Hutchison. Thank you. Thank you, Mr. Chairman.
    I appreciate what you said, Secretary Hammack, about 
gauging the MILCON as you go based on these decisions that are 
going to be made. I have expressed, pretty publicly, that I am 
concerned that we have spent so much on MILCON in Germany, and 
then the announcement was made that we were going to reverse an 
earlier decision by the previous administration to leave two 
brigade combat teams in Germany instead of have three.
    And I look at the Government Accountability Office (GAO) 
reports, the GAO said that when the decision was made to keep 
two and bring two home, that it would save millions. And they 
estimated that it would cost nearly $2 billion more from fiscal 
years 2012-2021 to retain the two brigades in Europe than it 
would cost to return them to the United States.
    The GAO also said that they were concerned about the lack 
of comprehensive cost data that the Army used when they were 
doing their theater posture plans. And they said that, of the 
$17 billion obligated by the services to support installations 
in Europe from 2006-2009, approximately $13 billion was for 
operations and maintenance (O&M).
    So my question is, how do you factor in the added costs of 
new MILCON in Germany and the O&M costs on top of that when the 
GAO and others have said that you could save so much more by 
keeping with the original decision to bring the two brigade 
combat teams back and not doing that added MILCON and then 
keeping the O&M?
    And I would ask either you or General Boozer.
    Ms. Hammack. In Germany, in Europe, we have been working on 
consolidation, and we have been working to reduce our 
footprint. In the last 5 years, we have closed 91 sites and 
returned 23,000 acres to the German Government. Over the next 5 
years, we plan to close 29 sites and return 7,000 acres to the 
German Government.
    In doing so, some of the facilities that we are closing are 
aging facilities that cost a lot to operate and maintain and 
cost a lot to sustain. So, as we consolidate into the other 
facilities, by building new, it is reducing our costs for O&M 
in those facilities that we need to remain in.
    Senator Hutchison. General, did you have something to add?
    General Boozer. Yes, ma'am, if I could, Senator?
    Senator Hutchison. Yes.
    General Boozer. Thank you. Ma'am, I mean, you are correct, 
absolutely correct. It is more expensive to operate, build, 
maintain, and sustain a force in Europe versus back here in the 
United States. And Secretary Hammack pointed out some of the 
ways we have to try to mitigate that is through these 
consolidation and efficiency efforts that are still ongoing. 
U.S. Army Europe, now based on this most recent decision, will 
have to look, are there more efficiencies and more 
consolidations that can take place? Senator Kirk mentioned 
Bamberg and Schweinfurt, so clearly, U.S. Army Europe and the 
Army, the Department is going to have to look at that very, 
very closely to see if there is more efficiencies to be 
garnered.
    There are some things that, even though more expensive, 
hard to put a price tag on of the benefits that are reaped by 
having a force over there. What the right size is, I think, is 
still under discussion, but the benefit of having a force there 
that can partner and build alliances and the training value 
that our soldiers get by operating in a multinational 
environment, are very hard to put a price tag on that.
    Senator Hutchison. Well, General, let me just make a couple 
of points. Germany was supposed to be the lead for NATO early 
on for the security in Kabul. And they started backing out with 
restrictions on what they would do, rules of engagement that 
were limiting, and America has taken the giant lead, as we all 
know, in Afghanistan. Germany has said right away, right up 
front, they are doing nothing in Libya.
    And so I think we do need to start looking at the overall 
importance of and effectiveness of these joint international 
training missions if in fact some of our allies participate and 
then sometimes they don't.
    The other point that I would ask you about, and I would ask 
both of you, is that Germany is notorious for not making much 
of an effort for the building programs that we do in country. 
Germany's contribution has been about $20 million per year of 
the overall $1.4 billion that we have spent in Germany between 
2006 and 2010. That is less than 10 percent.
    And my question is, are you factoring those things in? And 
are you asking for more participation from Germany, such as, 
for instance, Japan does and even Korea is doing more now? Are 
we also making this case with Germany? And are we looking at a 
long term--whether, in fact, it is so much more expensive and 
maybe not as effective as we would like for it to be to have 
these operations there when our allies don't seem to be 
stepping up in the major theaters like Afghanistan, certainly 
nothing in Iraq from Germany.
    How are you putting that all together? And are you asking 
for more of an effort? And are you looking at really carefully 
how much more we should be building in Germany, and then 
eventually turning back to the Germans, with very little effort 
on their part?
    General Boozer. Yes, Senator, thank you. Yes, that is a 
true statement. German host-nation contributions are absolutely 
lagging from other host nations like Japan and Korea.
    I don't know how engaged we are in trying to turn that 
tide, but it is something that I would personally take on to 
see what else we can do. I think we need to ask, and I think we 
need to probably solicit the help of the State Department and 
our ambassadors there to help us in that endeavor.
    So I absolutely concur.
    Senator Hutchison. Well, thank you. I do appreciate that 
response. I do. And I appreciate that you will be looking, 
Madam Secretary, at whether we really do go forward with some 
of this MILCON when we look at the bigger picture of how many 
we are going to really have there and what is the effectiveness 
of it.
    So I thank you for saying you will look at it and I hope 
that you will. Thank you.
    Senator Johnson. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. And thank you all 
for being here today.

                    NATIONAL GUARD READINESS CENTERS

    I applaud the investment that is being made in the Army 
National Guard readiness centers. These centers provide the 
necessary support for the operational and ever-ready Guard and 
Reserve. We have had several new facilities in Nebraska, and I 
think that they are not limited to our State, but the Guard 
has, for a long time, been under-resourced in meeting those 
facility requirements.
    I know, General Boozer, you mentioned about having a study 
that is going to be required. Can you talk a bit about how the 
Guard and Reserve facilities are prioritized when you have this 
report that you go through?
    And I think, Madam Secretary, you made reference to it as 
well, how you are going to determine the facilities. Obviously, 
aging facilities are going to have one priority, but priorities 
may be for different reasons in different locations. Is there 
going to be a way to establish priorities, not simply on an 
aging basis?
    I think we will start with you, Madam Secretary.
    Ms. Hammack. Absolutely, and thank you for that question. 
Each command prioritizes where they need investment. So when it 
is all brought together, we have a prioritized list from the 
Guard, we have a prioritized list from the Reserve, the regular 
Army, Army materiel command, et cetera, and we look at them all 
together based upon the critical nature of the requirements.
    And as I said, we are launching into increased scrutiny of 
this to really look at condition of facilities. And some of the 
capacity things we might be looking at--less square foot for 
each function, but condition is where the focus of our MILCON 
will be.
    And as I said, every project competes, and it competes 
based upon the requirements of that facility.
    Senator Nelson. Well, in that regard, it could be that an 
aging facility is going to be less important to today and 
tomorrow and the needs beyond than, perhaps, a facility that is 
not as old, but needs to be modified to take into consideration 
the mission for that facility. So what I am getting at is, I 
know aging will be a factor, but you might move new facilities 
ahead of old facilities just on the basis of there is a higher 
need for them for mission.
    Ms. Hammack. And mission is part of the process, and that 
is where the prioritization by the command comes from, looking 
at what their mission requirements are.
    Senator Nelson. So it won't simply be by aging?
    Ms. Hammack. No, but that is--and age isn't part of it, it 
is condition.
    Senator Nelson. Well, condition.
    Ms. Hammack. We have some very old facilities that are in 
excellent condition. But we have some newer facilities--there 
is a certain era where some of the facilities that were built 
were not of durability to last. So we have some newer 
facilities in worse condition than older facilities.
    Senator Nelson. But condition alone will only be part of it 
because mission requirements would be equally or, in many 
cases, more important?
    Ms. Hammack. Absolutely. Mission is the primary focus.
    Senator Nelson. Okay.
    General, anything you might like to add?
    General Boozer. Yes, Senator, thank you. The one thing I 
would add is that we do have this internal process in the Army 
where we look at the MILCON projects for all three components--
Active, Guard, and Reserve--and we do look at quality, age, and 
we also look at quantity. So when we have deficits of certain 
facility types, whether it be Guard, Reserve, or MILCON, that 
plays in heavy as well in terms of are we meeting mission 
requirements.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Johnson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. And welcome to 
the panel.

                        FORT WAINWRIGHT, ALASKA

    Secretary Hammack, a question for you. I know that you are 
familiar with the housing project on Fort Wainwright known as 
the Birchwood Homes, these are 400 unit, the 801 housing.
    Back in May 2007, the Army allowed that these units be 
leased out to the public, and that out-lease ends then in May 
2018. The 801 project developer as well as the Fairbanks North 
Star Borough have requested that the Secretary consider an 
approval to extend that ground lease beyond the year 2018 so 
that the housing can continue to be made available to the 
military as well as the Fairbanks community. This is in a 
community where housing is an issue, particularly the four- and 
five-bedroom units. This is a big deal for us.
    Back in October, the Alaska delegation wrote the Secretary, 
asking that the Army favorably consider that proposal to extend 
the ground lease. But then back in December, we received a 
response that the proposal had been rejected. And the comment 
made by the Secretary was that Fort Wainwright may need this 
land in the future for installation support facilities.
    So the question this afternoon is whether or not the Army 
does have some kind of a plan, a definitive plan for developing 
the land where the Birchwood Homes projects sits.
    And basically, we are trying to find a creative solution. 
And I know this is not news to you, but just seeking a little 
bit of input this afternoon as to how we can advance this in a 
way that is good for Fort Wainwright, good for the community, 
and really get to that win-win situation.
    Ms. Hammack. Thank you very much for the question.
    I was up there in August taking a look at this area. One of 
the challenges of Alaska, as I'm sure you know, is permafrost. 
And this area that these houses are built on is an area that is 
permafrost-free, which means it reduces the complexities with 
construction there.
    So when we look at the entire base configuration, including 
the land on which those houses are located, that is one of the 
largest areas that the Army had set aside for future use. And 
when this lease expires, we do have intended use, we have plans 
and programs for that use of that area. So the developer is 
very well aware that it was a land that the Army needs, that it 
was a lease that had a termination date on it. And because of 
the characteristics of the land, that is land that the Army 
does need to support our soldiers in that area.
    Senator Murkowski. So there is, what you would consider to 
be, a definitive plan that is either under way or is on the 
books for after 2018?
    Ms. Hammack. Yes.
    Senator Murkowski. Let me ask you, because you bring up the 
subject of permafrost and the fact that in Alaska, particularly 
up in the interior there, you have got a pretty short 
construction season. And with the situation that we have been 
in back here in Washington, DC, it makes for a pretty short 
construction season when in fact we are just now in the process 
of completing the work on our fiscal year 2011 MILCON 
appropriations bill.
    So the question that I would pose to you this afternoon, 
and I understand you may have alluded to it in your opening, 
but how much groundwork have you been able to lay in 
anticipation that we were actually going to get our work done 
here so that you can get these new projects moving along? Are 
you going to be accelerating some of the contracting process? 
How are you going to deal with just a very consolidated time 
period that we have got?
    Ms. Hammack. I appreciate your question and we had a 
meeting on this last week to look specifically at Alaska. 
Because right now there is $300 million worth of contracts, 
projects that have been bid, that have been thoroughly scoped, 
and that are ready to award. And essentially, the contracts are 
written ready to award, but we can't obligate funds until we 
have a budget.
    May 1 is really our definitive date. We have to have the 
contracts enacted and in place by May 1 in order for us to 
execute what we need to do out of the fiscal year 2011 budget.
    Senator Murkowski. So, are you anticipating that some of 
these projects may drop off if we are not able to do what we 
need to do prior to May 1?
    Ms. Hammack. They would not drop off, they would have to be 
postponed. We would award the contracts. Some of them are at a 
65-percent design level. And part of the contract is the final 
last touches on the design, finishes, and some of the other 
final fit-outs. So we would have to use some of that time 
period for other activities and be ready to then start the 
construction as soon as----
    Senator Murkowski. Do you have any sense----
    Ms. Hammack [continuing]. The season starts.
    Senator Murkowski [continuing]. As to how many or perhaps 
what percentage might be in that deferred status?
    Ms. Hammack. It is entirely dependent upon when we get that 
new start authority. And as I said, if we get that new start 
authority by May 1, we will be able to enact the plans that we 
have right now.

                          APPROPRIATIONS BILL

    Senator Murkowski. Well, that certainly goes to highlight 
one of the issues that we were talking about around here about 
the impact that the delay here in the Congress to these 
appropriations bills and how that actually translates on the 
ground. I think it has meaningful consequence and 
unfortunately, possibly negative consequence if we're looking 
at a lot of the deferrals. So hopefully that will get to you in 
a more timely manner.
    Ms. Hammack. Well, the concern is, as bids age, we reach 
bid expiry dates. And, so far, many of our contractors have 
been willing to give us bid extensions. But if they age too 
much, then it has to be re-competed because the bids have 
expired, and then you are at risk of increased cost. So really, 
we encourage everyone to give us the new start authority so we 
can put your constituents to work.
    Senator Murkowski. I am hoping we do that today.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Tester.
    Senator Tester. I'm going to save all my fireworks for the 
Air Force.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Johnson. Thank you all for coming today, and thank 
you for your service to our Nation. We will look forward to 
working with you and your staffs this year. Will our second 
panel please be seated?
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Katherine Hammack
               Questions Submitted by Senator Tim Johnson
   transportation improvements/base realignment and closure medical 
                               facilities
    Question. The fiscal year 2011 Department of Defense (DOD) 
appropriations bill includes $300 million for transportation 
improvements related to base realignment and closure (BRAC) medical 
facilities. Does the Army have a plan for this money that could be 
executed quickly?
    Answer. The Army has identified road improvement projects related 
to BRAC medical facilities. The oversight of these funds however is 
with the Office of Economic Adjustment (OEA) from the Office the 
Secretary of the Defense (OSD). The Army is prepared to move forward 
with these projects once OEA has determined which projects will be 
funded.
    Question. In addition to the traffic improvements needed at 
Bethesda and Fort Belvoir, are there any other medical facilities that 
would receive a portion of these funds?
    Answer. The oversight of these funds is with the OEA from the OSD. 
The Army must work with OEA as they determine how the funds will be 
used.
    Question. What specific road improvements needed at Fort Belvoir 
and Bethesda as a result of the new hospitals, and what is the 
projected cost to complete them?
    Answer. The oversight of these funds is with the OEA from the OSD. 
The Army must work with OEA as they determine how the funds will be 
used.
    Question. How much of the $300 million will be used for traffic 
mitigation measures in the vicinity of Fort Belvoir and how much for 
Bethesda?
    Answer. The oversight of these funds is with the OEA from the OSD. 
The Army must work with OEA as they determine how the funds will be 
used.
                          army force reduction
    Question. Secretary Hammack, Secretary Gates has announced a 
reduction of 27,000 in Active Army end strength by 2015. It is my 
understanding that the drawdown in forces will be contingent on troop 
withdrawals in Afghanistan and as part of an Army force structure 
review.
    What impact will this anticipated drawdown have on the Army 
military construction (MILCON) program?
    Answer. The Army continues to review and analyze future force 
structure and operational adjustments to meet the directed 27,000-
reduction in the Army end strength beginning in 2015. This reduction is 
contingent on troop withdrawals in Afghanistan, which are expected to 
reduce significantly by the end of 2014. If the anticipated drawdown 
occurs, end strength reduction plan options will be developed and 
provided to Army leadership for decisions. Based on Army leadership 
decisions, the Army will adjust the MILCON program as necessary during 
the annual reconciliation of current construction requirement. No 
decisions have been made as to what type of units or what installations 
will be impacted.
    Question. How is it that there is a discussion on reducing force 
strength when the Army has not completed the MILCON piece of the 
current Grow the Army (GTA) initiative?
    Answer. The GTA initiative was a restructuring to the Army 
organization using the brigade as the centerpiece formation. The 
discussion on the 27,000-reduction in Army end strength is conditioned 
on projected reduction in demand for ground combat forces in 
Afghanistan, which is expected to be significantly reduced by the end 
of 2014. Assuming these conditions, an implementing plan will be 
developed and a set of options presented to Army senior leadership for 
decisions. However, at this point in time, no decisions have been made 
as to the type of units or installations that will be affected. As the 
Army's end strength is reduced, we expect that the impacts to the 
MILCON program will be minimal and that decrements and adjustments to 
the MILCON program will be addressed upon the conclusion of this year's 
Total Army Analysis.
    Question. Are there additional GTA MILCON requirements beyond 2012?
    Answer. There are three GTA MILCON projects currently programmed 
for fiscal year 2013. The projects appear in the fiscal year 2012 
President's budget Future Years Defense Program.
                         [Dollars in thousands]
------------------------------------------------------------------------
             Location                    Description      Estimated cost
------------------------------------------------------------------------
Fort Carson.......................  Addition/Alteration           $5,700
                                     to Preventive
                                     Medicine Facility.
Fort Stewart......................  Digital Multipurpose          17,000
                                     Training Range.
Fort Drum.........................  Soldier Specialty             22,000
                                     Care Clinic.
------------------------------------------------------------------------

    These are the final Army GTA MILCON requirements.
                           army efficiencies
    Question. Secretary Hammack, the Secretary's efficiencies 
announcement included a $1.4 billion reduction in Army MILCON over the 
next 5 years. This included the elimination of $200 million in projects 
from the fiscal year 2012 request. However, you indicated in your 
written statement that the Army will be reviewing these decisions and 
will reserve the right to put projects back into future MILCON budgets.
    When will the Army begin this review?
    Answer. The Army reviews requirements on a continual basis. The 
Future Year Defense Program is developed and refined each year based on 
senior leader initiatives and priorities. The majority of the deferred 
projects ($1.4 billion reduction) supported quality-of-life, force 
projection, operational, and training range requirements. These 
projects may compete for funding to be included in future MILCON 
budgets based on current need and senior leader initiatives.
    Question. If some of the deferred projects need to be added back 
into the MILCON program, will the Army offer offsets to maintain the 
$1.4 billion in efficiencies?
    Answer. Yes, the Army will offer offsets to maintain the $1.4 
billion reduction in the Army's Military Construction Program.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                 land acquisition efforts at fort polk
    Question. Regarding the land acquisition efforts at Fort Polk, I 
understand the company rejected the first two offers for the initial 
parcel of land. I have also been informed the local leadership, 
including one of the local mayors and a police jury president, has 
reached out to the landowner in an effort to move the process forward. 
What is the status of the negotiation with that company?
    Answer. The Army Corps of Engineers (COE), Fort Worth District, 
Chief of Real Estate provided an initial written offer with maps and 
engaged in discussion with a local company official in Shreveport, 
Louisiana to purchase the initial tract of land. The local company 
official declined to make a counter offer or proceed with negotiations. 
To encourage company officials to reconsider, a second offer letter was 
elevated to the company's principle business office in Boston, 
Massachusetts. Company officials are reviewing the offer and possible 
sale to the Government. We expect an update from the company mid- to 
late May 2011. To date no counter offer has been received and 
negotiations are not yet complete.
    Local and State representatives met with a company representative 
to emphasize the land acquisition's importance and Fort Polk's 
significance within Louisiana.
    All land negotiations are conducted by Government officials in 
accordance with the Uniform Relocation Act at 42 U.S.C. 4601, et. seq.
    Question. Have you spoken/engaged with the local leadership to 
inquire about their knowledge of the landowner and his/her asking 
price?
    Answer. There has been no direct dialogue between the COE's Fort 
Worth District, Chief of Real Estate, and local leadership to inquire 
about the landowner's asking price. In accordance with the Uniform 
Relocation Act, the Government offered market value for purchase of 
land. This value is not shared or made public with any party other than 
with the landowner involved. The COE is waiting on feedback to our 
offer directly from the landowner's corporate representative. To date, 
the COE has no knowledge that the landowner has stated an asking price. 
Instead, our understanding is that the landowner is assessing if a sale 
is in their best interest or even possible from their standpoint.
    Question. What is the plan for bringing the current landowner to 
the table for continued negotiations?
    Answer. The landowner has not rejected the Government's offer and 
continues to be involved with negotiations. When/if a counter offer is 
received from the landowner, those terms will be evaluated and 
negotiations will continue and possibly conclude with a purchase 
through a signed offer-to-sell and closing. However, if negotiations 
for purchase ultimately fail, the Army will have to re-evaluate 
training requirements and the land acquisition effort.
    Question. Would you please tell me the lead from the installation 
command who is working with the COE in the negotiations? As the Army 
continues with the Fort Polk land acquisition, I want to ensure we keep 
the right folks informed and to be of assistance where possible.
    Answer. The installation management command lead is the Fort Polk 
Directorate of Public Works.
    Question. Can you provide me a detailed list of the money that is 
currently available for use to acquire the additional acreage in 
question around Fort Polk, Louisiana?
    Answer. The list of money appropriated and programmed to acquire 
the additional acreage at Fort Polk is as follows:
  --$17 million military construction (MILCON) dollars have been 
        appropriated for project number (PN) 74406 in fiscal year 2010;
  --$30 million MILCON dollars have been appropriated for PNs 66194 and 
        72676 in fiscal year 2011, $6 million and $24 million, 
        respectively;
  --$27 million MILCON dollars are being requested in fiscal year 2012 
        for PN 66195; and
  --$30 million MILCON dollars are planned for PN 66196 in fiscal year 
        2013.
    Question. Also, please detail when these different pots of money 
were appropriated to the Army, for what purpose, and in what account?
    Answer. Currently, only Military Construction, Army dollars have 
been appropriated for land acquisition at Fort Polk. These dollars were 
appropriated as follows:
  --one project for $17 million in fiscal year 2010;
  --two projects for $30 million in fiscal year 2011;
  --one project for $27 million has been requested in fiscal year 2012; 
        and
  --one project for $30 million is planned in fiscal year 2013.
    Question. Also if any of these monies are at risk in the Army's 
overall budgeting process. I see this as an important project for the 
Army's training and recap efforts and want to provide the right amount 
of oversight to protect these appropriations.
    Answer. The Army does not currently see these dollars at risk. It 
is important to note that although land acquisition funds are requested 
as MILCON projects, in truth they have little in common with 
traditional facility construction projects. For example, they tend to 
have slower execution timetables, which are dependent upon having all 
of the funds on hand to conclude a negotiation in good faith with 
landowner(s). The Army would urge patience and caution when analyzing 
unobligated balances in the Military Construction, Army account, as 
unobligated balances in land acquisition programs deserve to be treated 
differently than regular construction projects.
    Question. The Army has indicated that the privatized family housing 
has been given the go-ahead to build roughly 192 additional units on 
Fort Polk. Will these be houses that are refurbished from existing 
units or will they be newly constructed units?
    Answer. The current family housing deficit at Fort Polk is 192 
units. Of that deficit, the project will construct 112 new units. The 
remaining 80 units will likely be addressed via a variety of methods--
i.e., home purchases, soldiers choosing not to bring their families to 
Fort Polk, or soldiers residing outside the defined commute area.
    Question. And what is the timeframe for completion?
    Answer. All 112 of the new homes will be constructed by March 2014.
    Question. I am encouraged to hear that Fort Polk was selected as 
participant in the Army's Net Zero Waste Program. What are the 
necessary steps that we (local, State, and Federal leaders) can take to 
make the Net Zero Waste Initiative a successful program in and around 
Fort Polk?
    Answer. Fort Polk is working with more than 70 local community 
partners to establish long-term goals and identify opportunities to 
improve sustainable practices. Local mayors, the Louisiana Economic 
Development Agency, and industry are very proactive and support 
establishing a regional recycling program. Continued partnerships among 
the Army, local community groups, and other key stakeholders are 
critical in meeting the Net Zero Waste goal at Fort Polk.
    Question. Are there any steps that would help make this initiative 
viable for the long term?
    Answer. The continued collaboration between Fort Polk and local 
community stakeholders to address regional waste reduction will ensure 
that the Net Zero Waste initiative is viable into the future. A 
regional recycling facility will reduce the total volume of waste that 
has to be disposed of in local landfills, directly assisting both Fort 
Polk and the local communities to achieve sustainable goals.
    Question. Are there any public-private partnership opportunities?
    Answer. No, family housing was privatized in September 2004, 
lodging was privatized in August 2009, and there are no additional 
privatization opportunities being considered at this time.
    Question. The soldiers and the families of Fort Polk deserve 
quality housing. The first six renovated barracks are receiving very 
positive revues from the soldiers and their leaders. Would you provide 
me with a detailed timeframe for the proposed completion of the 
remaining barracks that are slated for renovation?
    Answer. The Army has engaged in a long-term initiative, the 
Barracks Modernization Program, to improve living conditions for 
soldiers residing in permanent party barracks at all Army 
installations. Fort Polk has an inventory of 4,920 spaces in 33 
barracks buildings for permanent party single soldiers in the ranks of 
private through sergeant. The sustainment, restoration, and 
modernization (SRM) funded fiscal year 2008-2009 projects to renovate 
16 barracks buildings and four central energy plants are scheduled to 
be completed by February 2013. The Army is planning on renovating six 
more barracks buildings with SRM funding in 2011 with completion 
scheduled for 2013. Ten more barracks buildings are planned for 
renovation through SRM-funded projects in fiscal year 2012. These 
renovations are estimated to be completed by fiscal year 2014.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                       heavy brigade combat team
    Question. Secretary Hammack, the Department of Defense announced on 
Friday, April 8, that the Army will be re-deploying one heavy brigade 
combat team (BCT) from Germany to the United States, although it is not 
yet determined which BCT will be redeployed and the move would not 
occur until 2015. As you are aware, there are only two heavy BCTs in 
Europe, the 170th infantry brigade in Baumholder and the 172nd infantry 
brigade in Grafenwoehr. How will the Army determine which BCT will be 
redeployed and what installation in the United States the BCT will be 
re-deployed to?
    Answer. The Department of Defense recently announced that it will 
retain three BCTs in Europe to maintain a flexible and rapidly 
deployable ground force to fulfill the United States' commitments to 
NATO, to engage effectively with allies and partners, and to meet the 
broad range of 21st century challenges. In addition, the Secretary of 
Defense announced plans to reduce the Active component Army end 
strength by 27,000 soldiers beginning in 2015. In light of these 
announcements, the Army is conducting a thorough analysis to determine 
the overall makeup of the force. Any BCT stationing decisions will be 
addressed, along with other force structure actions, at the conclusion 
of this year's Total Army Analysis.
    Question. Secretary Hammack, on January 11 when Secretary Gates 
made his announcement about efficiency initiatives that the Department 
was looking to implement, he mentioned that in an effort to save $6 
billion the Army's permanent Active Duty end strength would be reduced 
by 27,000 troops starting in 2015. Is it your assessment that the BCT 
scheduled to be redeployed from Germany could be impacted by these 
troop cuts?
    Answer. No decision has been made as to what types of units or what 
installations will be impacted by the Secretary of Defense announcement 
to reduce the Active component by 27,000 soldiers. The Army is 
conducting a thorough analysis to determine the unit and stationing 
implications associated with this end strength reduction.
                                 ______
                                 
             Question Submitted by Senator Mitch McConnell
                       the blue grass army depot
    Question. The Blue Grass Army Depot (BGAD) industrial operations, 
specifically the mine resistant ambush protected (MRAP) and chemical 
defense equipment (CDE) operations, are important missions that support 
the combat fighters. What is the Department of Defense's plan for these 
two critical functions, for the overall future workload at BGAD in this 
vein and for the relevant work force at BGAD?
    Answer. Thank you for recognizing the importance of our mission at 
BGAD. I will address your MRAP question first. The Joint Program 
Management Office for MRAPs is currently storing MRAP kits and raw 
materials at BGAD on a year-by-year basis as needed. In fiscal year 
2011 we will provide approximately $500,000 to fund storage operations, 
to date $250,000 has already been provided. We anticipate the same 
level of funding in fiscal year 2012. The plan for the CDE mission at 
BGAD is to execute the same level of funding in fiscal year 2012 that 
was executed in fiscal year 2011--$2.4 million. BGAD possesses a unique 
stock, store, and distribution system that has the capability to manage 
shelf life items. There are more than 400 CDE items that require 
intensive shelf life management.
                                 ______
                                 
                Question Submitted by Senator Roy Blunt
                 land acquisition efforts at fort polk
    Question. Can you please provide an accounting of the actions being 
taken by the Army to expeditiously repair and replace housing and 
training facilities damaged or destroyed by the tornadoes that affected 
Fort Leonard Wood in February?
    Answer. The installation management command has validated a cost 
estimate of $19 million in sustainment, restoration, and modernization 
and base operations support costs as a result of the tornado damage. 
Currently, the installation has completed 65 projects; 53 projects are 
under construction; and 15 projects are in the design phase and 
contracting phase. Fort Leonard Wood has completed 85 percent of the 
installation cleanup. Operations and training at Fort Leonard Wood are 
normal; the installation has provided workarounds until all repairs/
replacements are made to facilities, ranges, and training areas so no 
training or normal operations are hindered.
    Fort Leonard Wood had/has surplus housing and the tornado did not 
adversely impact the supply of housing. Prior to the tornado, Fort 
Leonard Wood was drawing down from 2,242 homes to an end state of 1,806 
homes and that plan remains the same. The project will replace all 40 
destroyed homes with new construction and build an additional 100 new 
homes with $15.75 million in Grow the Army funds previously transferred 
to the Family Housing Improvement Fund for privatization initiatives.
    Construction is anticipated to begin July 1, 2011. All of the 
damaged homes will be repaired with insurance proceeds--final estimates 
are still pending.
                                 ______
                                 
              Questions Submitted to General James Boozer
               Questions Submitted by Senator Tim Johnson
                    brigade combat team announcement
    Question. General Boozer, on Friday, the Department of Defense 
announced its intent to revise force posture in Europe. As part of that 
announcement, the Department intends to retain three brigade combat 
teams (BCTs) in Europe instead of four.
    Will the fourth BCT be re-stationed in the United States or is 
there a possibility that it will be deactivated?
    Answer. A decision has not yet been made regarding the heavy 
brigade. The Army continues to anticipate increased budget pressures 
which will require that it evaluate force capabilities and structure. 
The required Active component end strength reduction may impact all 
installations across the force. A stationing decision for the BCTs and 
other force structure actions, to include end strength reductions, will 
be addressed at the conclusion of this year's Total Army Analysis.
    Question. How will this decision impact Army bases at Bamberg and 
Schweinfurt in Germany?
    Answer. Future impact to the Army bases at Bamberg and Schweinfurt, 
to include the locations for the three BCTs to remain in Europe, will 
be determined at the conclusion of the this year's Total Army Analysis.
    Question. Is the Army end strength reduction linked to the 
reduction of one BCT in Germany?
    Answer. The disposition of BCTs in Europe was pending NATO's 
strategic concept and U.S. defense posture. To date, no decisions have 
been made as to what types of units or what installations will be 
impacted by the Secretary of Defense announcement. The Army will 
develop its plan to adjust force structure to meet the 27,000 end 
strength reduction, and a set of options will be presented to Army 
senior leadership for decision.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
                   barracks facilities in grafenwoehr
    Question. General Boozer, the Army requested $75.5 million in 
fiscal year 2011 for construction of new barracks facilities in 
Grafenwoehr, home of the 172nd heavy brigade combat team (BCT), and for 
fiscal year 2012 the Army is requesting $38 million in new military 
construction (MILCON) projects for a new barracks facility, chapel, and 
convoy live fire range. Why is the Army requesting more than $100 
million for new construction in Grafenwoehr if the 172nd BCT could 
potentially be redeployed to the United States?
    Answer. All of the MILCON projects requested in Germany for fiscal 
year 2011 and fiscal year 2012, including the projects at Grafenwoehr, 
have validated requirements that would still exist regardless of 
whether the 172nd heavy BCT is, or is not, selected to depart from 
Europe. The Army's construction request in Europe was specifically 
planned to be neutral on BCT stationing, given that no decision on 
force posture in Europe had been made at the time the budget was 
developed.
               brigade combat team complex at fort bliss
    Question. General Boozer, as you are aware the American taxpayers 
have spent more than $437 million to build a brand new BCT complex at 
Fort Bliss. If the decision is made not to re-deploy a heavy BCT to 
Fort Bliss, what will become of this brand new facility?
    Answer. The Army asserted in its gap analysis that the 48th BCT 
MILCON would be required to support population increases as well as to 
address facility requirements related to the activation of the 212th 
fires brigade (fourth quarter fiscal year 2011), the re-stationing of 
the 15th sustainment brigade (second quarter fiscal year 2011), and the 
pending increased mission requirements pertaining to the Army 
Evaluation Task Force, effective second quarter fiscal year 2011. The 
current Fort Bliss Facility Synchronization Plan includes:
      212th Fires Brigade.--Re-stationing to Fort Bliss (fourth quarter 
        fiscal year 2011), and is scheduled to occupy its phase 1/
        recently completed MILCON, as well as a portion of the BCT No. 
        48 complex (supporting its requirement for two tactical 
        equipment maintenance facilities and six company operation 
        facilities).
      15th Sustainment Brigade (Headquarters and Headquarters Company 
        Only).--Relocated from Fort Hood in second quarter fiscal year 
        2011, moving into a portion of the BCT No. 48 complex.
      Division Special Troop Units.--Expected activation date of third 
        quarter fiscal year 2011, with planned facility support to 
        include legacy facilities, relocatables, and a portion of the 
        48th BCT complex, once completed third quarter fiscal year 
        2011.
      Army Evaluation Task Force.--Currently resides in legacy 
        facilities on main post. Pending senior leadership review and 
        approval, the Army Evaluation Task Force could conduct a phased 
        movement of its mission operation and personnel to the 2/1AD 
        BCT complex.
    Although the decision to remove one brigade from Europe by 2015 was 
announced, the Army has yet to determine which one of the four brigades 
will be removed from Europe, has not determined if it will relocate to 
the United States, nor has any decision been made on its final 
location. However, should a BCT be returned to Fort Bliss, additional 
MILCON will be required to support its relocation.
                                 ______
                                 
            Questions Submitted to General Raymond Carpenter
               Questions Submitted by Senator Tim Johnson
                       lack of earmarks/plus ups
    Question. In past years, the Congress has made it a priority to 
provide additional military construction (MILCON) funding for the Army 
Guard and Army Reserve in the form of earmarks and plus-ups to account 
top-lines.
    General Carpenter, with the increased reliance on the National 
Guard for operational mission support, and the overwhelming need to 
improve Guard facilities for training, can the Guard realistically meet 
its MILCON requirements without help from the Congress through 
earmarks?
    Answer. The President's budget does not assume the receipt of 
earmarks, and our internal processes are based on mission-related 
requirements. Earmarks have, in the past, addressed the replacement and 
maintenance of legacy facilities and meeting mission requirements. The 
President's budget request provides distribution of MILCON resources 
within established priorities of the Army.
    Question. What impact will the current ban on earmarks have on the 
Guard MILCON program?
    Answer. The internal process for selecting MILCON projects in the 
President's Budget is based on mission related requirements and does 
not assume the receipt of earmarks. This selection process will not 
change if earmarks are not received. The President's budget request 
provides distribution of resources within established priorities of the 
Army and identifies the Army National Guard's level of funding for the 
Military Construction, Army National Guard program.
                                 ______
                                 
                Questions Submitted to Mr. James Snyder
               Question Submitted by Senator Tim Johnson
                       lack of earmarks/plus ups
    Question. Same question to you, Mr. Snyder--what impact will the 
earmark ban have on the Army Reserve's ability to meet its military 
construction (MILCON) requirements?
    Answer. The earmark ban will have a minimal impact on the Military 
Construction, Army Reserve program. The President's budget request 
provides an equitable distribution of resources within the established 
priorities of the Army and provides the Army Reserve with $281 million 
for the Military Construction, Army Reserve program. However, as with 
the Active component and the National Guard funding, the Army Reserve 
funding is currently not sufficient to address all of the Army Reserve 
requirements to include modernizing our legacy facilities and upgrading 
our facilities to meet current operational training standards.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
                      army strong community center
    Question. The Army Strong Community Center (ASCC) is an element of 
the Army Reserve virtual installation that was created to fill gaps in 
services and to support geographically dispersed service members, 
retirees, veterans, and their families. There are currently four pilot 
sites:
  --Rochester, New York;
  --Brevard, North Carolina;
  --Coraopolis, Pennsylvania; and
  --Oregon City, Oregon.
    I understand a new ASCC recently opened in Oregon. Can you talk 
briefly about how this program works and the future expansion of the 
project?
    Answer. ASCCs are an element of the Army Reserve Virtual 
Installation Program created to fill in gaps in services, and support 
geographically dispersed soldiers, retirees, veterans, and their 
families. The ASCCs provide responsive support through a personal touch 
by trained, qualified, and skilled staff. They combine military and 
community resources to provide, virtually, the same level access to 
support that soldiers and families would expect from a military 
installation.
    Soldiers and families need responsive services near where they 
live, and should not be required to drive great distances to Active 
component installations. The ASCCs connect soldiers and families with 
services that exist in the community, and provide them directly via 
personal touch, to obtain resolution. The ASCCs also build community-
based capacity and foster effective Federal, State, and local 
partnerships. Through these efforts, initiatives are built and 
strengthened, while partnerships are fostered, and services coordinated 
to support the strength, resilience, and readiness of soldiers and 
their families. There are currently four pilot ASCCs in operation:
  --Rochester, New York;
  --Brevard, North Carolina;
  --Coraopolis, Pennsylvania; and
  --Oregon City, Oregon.
    As each pilot ASCC opens, Army Reserve Family Programs conducts 
analysis of their usage, types of issues resolved, and the demographics 
served in order to ensure proper selection of new pilot sites, services 
offered, and staffing. Plans for a total of six pilot sites, in both 
rural and urban areas, in partnership with Federal, State, and local 
agencies, are in motion.
    Question. As you know, Arkansas has many rural areas and a 
significant number of Reserve members. I read there are four locations 
to be added throughout the year. What criteria do you look at when 
deciding where to open the centers?
    Answer. Army Reserve Family Programs conducts market research and 
analysis of the areas throughout the country to determine the Army 
Reserve's ability to partner with local community and other 
organizations to create a network to assist Army Reserve soldiers and 
families.
    ASCCs build community capacity and foster effective partnerships 
with Federal, State, and community agencies, as well as with veterans' 
and social service organizations. We are looking for opportunities to 
partner with community colleges, Veterans' Affairs centers, and other 
cost-effective locations.
    Prior to opening a pilot ASCC the criteria used to determine each 
site includes the below elements:
  --Army Reserve soldier and veteran population within 50-mile radius.
  --Installation Army community services, Navy family services, Air 
        Force Family Service Centers, and National Guard Family 
        Assistance Centers within 50-mile radius.
  --Facilities with easy access for soldiers and families, space for 
        parking, office suite that has private office space, 
        comfortable waiting area for adults and children, Internet, and 
        e-mail capability, controlled access, and safety features.
                      Department of the Air Force

STATEMENT OF HON. TERRY A. YONKERS, ASSISTANT SECRETARY 
            OF THE AIR FORCE (INSTALLATIONS, 
            ENVIRONMENT AND LOGISTICS)
ACCOMPANIED BY:
        MAJOR GENERAL TIMOTHY A. BYERS, CIVIL ENGINEER, UNITED STATES 
            AIR FORCE
        MAJOR GENERAL WILLIAM H. ETTER, DEPUTY DIRECTOR, AIR NATIONAL 
            GUARD
        MAJOR GENERAL JAMES F. JACKSON, DEPUTY CHIEF, UNITED STATES AIR 
            FORCE RESERVE

    Senator Johnson. I am pleased to welcome our second panel 
of witnesses. The Hon. Terry A. Yonkers, Assistant Secretary of 
the Air Force; Major General Timothy A. Byers, the Air Force 
Civil Engineer; Major General William H. Etter, Deputy Director 
of the Air Guard; and Major General James F. Jackson, Deputy 
Chief of the Air Force Reserve.
    This year's military construction (MILCON) budget for the 
Air Force is $1.4 billion, which is $97 million more than last 
year's request.
    I am pleased to see that the Air Force Reserve request is 
more than triple the fiscal year 2011 request, which funded 
only one project. But I note that the Air Guard's request is 40 
percent lower than last year's request.
    I continue to believe that more needs to be done to address 
the backlog of MILCON requirements for Guard and Reserve 
forces, and I am interested in your thoughts on the impact that 
a moratorium on earmarks will have on the Reserve's forces.
    As I said at last week's hearing, I recognize that there 
are hard choices we must make in these difficult economic 
times. But we must not shortchange our Reserve forces at a time 
when their resources and manpower are already stretched thin.
    Again, thank you for coming. We look forward to your 
testimony.
    Mr. Secretary, I understand that you will be offering the 
only opening statement. Your full statement will be entered 
into the record, so I encourage you to summarize it to leave 
more time for questions.
    Please proceed.

               SUMMARY STATEMENT OF HON. TERRY A. YONKERS

    Mr. Yonkers. Thank you, Mr. Chairman, Senator Kirk, and 
distinguished members of the subcommittee.
    I want to thank you for allowing us to be here today to 
talk to the subcommittee about our MILCON, housing, base 
realignment, and other programs within the jurisdiction of this 
subcommittee. Again, thank you very much for the continued 
strong support that you have provided to our Air Force over the 
years.
    As you mentioned, sir, today I am joined by the Civil 
Engineer of the Air Force, General Tim Byers, Deputy Director 
of the Air National Guard, General William Etter, as well as 
the Deputy Chief of Air Force Reserve, General Jim Jackson.
    I would like to put in a pitch, as you heard from Secretary 
Hammack, about the continuing resolution, and it is the 
criticality of getting this fiscal year 2011 appropriations 
bill passed. We right now have about $650 million worth of 
MILCON that is on hold in the same status as the Army with 
regards to ready to go designs, ready to be contracted for, but 
they are on hold because of the green light to proceed with new 
MILCON starts. That constitutes just about one-half of our 
MILCON projects for this year.
    A right-sized and efficient infrastructure is essential to 
enabling our total Air Force and airmen to perform their 
duties, while ensuring responsible stewardship of the fiscal 
resources we are entrusted with. Our fiscal year 2012 
President's budget request contains $2 billion for MILCON, 
family housing, and base realignment and closure (BRAC).
    The $1.4 billion MILCON request, as you mentioned, sir, 
ensures new construction is aligned with our weapon system 
deliveries and strategic basing initiatives, and keeps us on 
track to eliminate inadequate housing for unaccompanied airmen 
by the year 2017.
    The $1.4 billion MILCON request includes $147 million to 
continue supporting Guam Strike and the beddown of the 
persistent missions at Andersen Air Force Base, Guam, that 
include the fighters, the bombers, the tankers, and the 
intelligence, surveillance, and reconnaissance platforms that 
we will have there. Guam Strike provides the air power vital to 
the U.S. Pacific Command's theater's engagement plan. And we 
continue to work through the Office of the Secretary of 
Defense-established Joint Guam Program Office, who ensures all 
the services' requirements are planned collaboratively for 
maximum effectiveness, efficiency, and synergy at Guam.
    The Air Force is well on its way to privatize the 52,500 
houses on all of our bases in the continental United States by 
the year 2012. To date, we have provided more than 1,500 new 
homes, 8,000 renovated homes for our airmen through housing 
privatization at 44 bases in 27 projects across the country.
    This would not have been possible without our private 
sector partners who have allowed us to do $6.5 billion worth of 
development for an Air Force investment of $423 million. That 
is a 15-to-1 exchange and leverage.
    There are six privatized housing projects yet to be done--
Southern Group, Joint Base Elmendorf-Richardson, the Western 
Group, the Continental Group, Air Combat Command Group III, and 
the Northern Group--that remain and will provide upgraded 
houses at 19 installations. The final project, the Northern 
Group, sir, which I know you are familiar with, is scheduled to 
close January 2012.
    Our efforts to provide quality housing for airmen and their 
families also includes nearly $500 million to sustain and 
modernize overseas housing and support housing privatization in 
the continental United States.
    As far as BRAC 2005 is concerned, the Air Force is on track 
to fully implement all of the statutory requirements required 
of us by the BRAC 2005 legislation. And we are fully funded at 
the $3.8 billion that has already been authorized.
    Housing for our unaccompanied airmen remains a top priority 
for us. Our fiscal year 2012 budget request includes seven new 
construction dormitory projects that total $190 million.
    This investment keeps us on track to meet our 2017 goal to 
provide adequate dormitories for all our unaccompanied airmen.
    We are also supporting our partners at the Joint Base 
Elmendorf, Alaska; Joint Base San Antonio, Texas; and Joint 
Base Langley-Eustis in Virginia with a construction of three 
more dormitories worth $190 million. These projects represent 
the last of the joint base MILCON funds transferred to the Air 
Force.
    Let me shift gears just a little and talk about 
environmental and some of the efficiencies that we are looking 
at within the portfolio of Installations, Environment and 
Logistics.
    Earlier this year, I signed out a policy that refocuses our 
environmental restoration efforts. The policy moves us much 
closer to completing cleanups of contaminated sites by 
leveraging available technologies and industry innovation 
through such contracting mechanisms as performance-based 
contracts.
    We have established some new goals to get to the end point 
much sooner than we are scheduled to do prior. For example, we 
are looking at accelerating the completion of sites of 75 
percent of our Active bases by the year 2015, and for our BRAC 
sites, 90 percent by the same timeframe.
    Our Air Force installations, renewable energy is a key 
pillar to our goal for increasing energy supply. Increasing 
energy efficiency is central to addressing our goal of reducing 
the energy demand.
    In fiscal year 2010, the Air Force funded 100 percent of 
our eligible MILCON projects to meet the LEED Silver standards. 
We have designed all new buildings since 2007 to be at least 30 
percent more energy-efficient. Within the Federal Government, 
the Air Force is also a leader in renewable energy use with 6.4 
percent of our electricity coming from renewables to date. Last 
year, we had 85 renewable energy projects on our bases that 
produced more than 34 megawatts of power and we expect to have 
1,000 megawatts of renewable power in production within the 
next couple of years.
    The budget request and efficiencies described here 
represent only a small sample of the efforts to meet our 
responsibilities to our airmen and to the Nation. While these 
are certainly challenging times for everyone, sir, and you have 
said it, the Air Force remains committed to fulfilling its 
obligation to fly, fight, and win as never before.

                           PREPARED STATEMENT

    Chairman Johnson, Senator Kirk, and distinguished members 
of the subcommittee, it is really an honor again to be here 
today and thank you for your continued support. I look forward 
to your questions.
    [The statement follows:]
              Prepared Statement of Hon. Terry A. Yonkers
                              introduction
    The United States faces diverse and complex security challenges 
that require a range of agile and flexible capabilities. From the 
ongoing conflicts in Afghanistan and Iraq, to potential confrontation 
with aggressive State and non-State actors, to providing humanitarian 
assistance, the Air Force continues to provide capabilities across the 
range of potential military operations. As part of this effort, we must 
ensure that we have right-sized and efficient infrastructure that 
enables our most valuable resource, our total force airmen, to perform 
their duties, while ensuring responsible stewardship of fiscal 
resources. To maximize our contributions to the joint team, we 
structured our resource choices by balancing them across the near- and 
long-term.
    Over the last year, the Air Force has striven to deliver our 
trademark effectiveness in the most efficient way possible. We are 
focused on five priorities, which serve as a framework for this 
testimony:
  --Continue to strengthen the nuclear enterprise;
  --Partner with the joint and coalition team to win today's fight;
  --Develop and care for our airmen and their families;
  --Modernize our air, space and cyberspace inventories, organizations, 
        and training; and
  --Recapture acquisition excellence.
                                overview
    Our fiscal year 2012 President's budget request contains $2 billion 
for military construction (MILCON), military family housing, and base 
realignment and closure (BRAC). The $1.4 billion MILCON request 
represents an increase of $97 million more than fiscal year 2011, 
allowing us to invest in the top priorities of the Air Force and our 
combatant commanders, even in a fiscally constrained environment. This 
request also ensures new construction is aligned with weapon system 
deliveries and strategic basing initiatives. In addition, we continue 
our efforts to provide quality housing for airmen and their families by 
dedicating nearly $500 million to sustaining and modernizing overseas 
housing, and supporting housing privatization in the continental United 
States. Our unaccompanied airmen remain a top priority; we request $190 
million to invest in dormitories, keeping us on track to meet our goal 
of eliminating inadequate housing for unaccompanied airmen by 2017. 
Finally, we also request $124 million to continue completing our legacy 
BRAC programs and environmental clean-up.
    In the course of building the fiscal year 2012 budget request, we 
applied asset management principles to ensure maximum efficiency 
without compromising the effectiveness of our installation weapons 
systems, the platforms from which we fly and fight. This was 
accomplished through the judicious funding of our sustainment 
priorities (for example, spending money in the right place at the right 
time to keep our good facilities good) and using MILCON to recapitalize 
existing facilities first, as a preferred alternative to growing our 
footprint.
             continue to strengthen the nuclear enterprise
    Since its inception, the Air Force has served as a proud and 
disciplined steward of a large portion of the Nation's nuclear arsenal. 
We steadfastly secure and sustain these nuclear weapons to deter 
potential adversaries and to assure our partners that we are a reliable 
force providing global stability. Reinvigorating stewardship, 
accountability, compliance, and precision within the nuclear enterprise 
remains the Air Force's No. 1 priority. While we have made progress in 
this area, we have taken additional steps in the fiscal year 2012 
budget to continue to strengthen and improve this core function.
    Air Force Global Strike Command achieved full operational 
capability on September 30, 2010, moving all Air Force nuclear-capable 
bombers and intercontinental ballistic missiles under one command. In 
addition to ensuring that our organizations and human resource plans 
support this mission, we are also concentrating on the infrastructure 
and facilities that are crucial to our success. Air Force civil 
engineers have conducted enterprise-wide facility assessments and 
understand that a significant portion of the existing infrastructure 
will require modernization or complete replacement in the years ahead. 
Our fiscal year 2012 budget request begins to address these issues with 
$75.6 million in MILCON for the nuclear enterprise, including a B-52 
maintenance dock at Minot Air Force Base, North Dakota, and an addition 
to the Air Force Nuclear Weapons Center at Kirtland Air Force Base, New 
Mexico. These and similar projects in the years to come will ensure 
maximum effectiveness for the Air Force's most important mission.
     partner with the joint and coalition team to win today's fight
    Our Air Force continues to project air, space, and cyber power to 
great effect in our conflicts in Afghanistan and Iraq, and our men and 
women make incredible contributions every day. We currently have more 
than 33,000 airmen deployed, including nearly 2,300 Air Force civil 
engineers. Nearly one-half of these engineers are filling joint 
expeditionary taskings, serving shoulder-to-shoulder with our solider, 
sailor, and marine teammates. Due to their wide array of skills, our 
Air Force rapid engineer deployable heavy operational and repair 
squadron engineers (RED HORSE) and our prime base engineer emergency 
force (Prime BEEF) personnel are in high demand in several theaters of 
operation.
    In addition to the contributions and sacrifices of our airmen, our 
fiscal year 2012 budget request invests $366 million in projects that 
directly contribute to today's fight. Examples include the following:
      Projects Supporting Our Combatant Commanders That Will Greatly 
        Enhance Ongoing Operations.--These include the recapitalization 
        of headquarters, United States Strategic Command at Offutt Air 
        Force Base, Nebraska and a new air freight terminal complex at 
        Andersen Air Force Base, Guam.
      New Facilities for Operations and Mission Support.--A new air 
        support operations facility at Fort Riley, Kansas will further 
        our efforts to support joint terminal attack control 
        specialists as they partner with ground forces to integrate 
        airpower in Iraq and Afghanistan. Additionally, we are 
        strengthening communications capabilities of combatant 
        commanders with a satellite communications relay in Sigonella, 
        Italy, and a communications and network control center at 
        Nellis Air Force Base, Nevada.
      Improvements at Andersen Air Force Base, Guam.--Three projects 
        continue to support the Guam Strike initiative, consolidating 
        operational capability for fighter and bomber operations at the 
        base.
             develop and care for airmen and their families
    The all-volunteer force provides the foundation for our flexibility 
and agility. Our fiscal year 2012 budget request reflects a commitment 
to providing first-class housing, while focusing on training and 
education, and striving to improve the overall quality of life for our 
airmen and their families.
    The best airmen in the world deserve the best facilities in the 
world, and our fiscal year 2012 budget request supports that goal. We 
aim to build upon the foundation laid during the Year of the Air Force 
Family, and utilize new data such as our 2010 Dormitory Master Plan to 
ensure we effectively allocate taxpayer dollars to our most pressing 
requirements.
Billeting
    We continue our efforts to provide quality housing for our airmen 
deployed to the U.S. Central Command theater with the fourth phase of 
the Blatchford-Preston Complex at Al Udeid Air Base, Qatar. This $37 
million project will build two dormitories, raising the billeting 
capacity there to 3,332 rooms.
Dormitories
    Housing for our unaccompanied airmen remains a top priority, and 
our Dormitory Master Plan provides valuable insight into how to 
maximize the impact of our investment. Our fiscal year 2012 budget 
request includes seven dormitory projects totaling $190 million. These 
include dorms at:
  --Travis Air Force Base, California;
  --Osan Air Base, Korea;
  --Eielson Air Force Base, Alaska;
  --Minot Air Force Base, North Dakota;
  --Ramstein Air Base, Germany;
  --Thule Air Base, Greenland; and
  --Cannon Air Force Base, New Mexico.
    This investment keeps us on track to meet our 2017 goal to provide 
adequate housing for all unaccompanied airmen. We are also supporting 
our partners at Joint Base Elmendorf, Alaska; Joint Base San Antonio, 
Texas; and Joint Base Langley-Eustis, Virginia, with the construction 
of three dormitories worth $193 million. These projects represent the 
last of the Joint Base MILCON funds transferred to the Air Force.
Training and Education
    The most professional airmen in the world grow into the world's 
best noncommissioned officers because of the investments we make in 
their education, starting from the day they enlist. We have two 
projects in this year's program totaling $78 million that address these 
areas. They include the fourth phase of the basic military training 
complex at Lackland Air Force Base, Texas, and an Education Center at 
Vandenberg Air Force Base, California.
Military Family Housing
    We are carrying forward the momentum we gained during the Year of 
the Air Force Family with continued investment in building thriving 
housing communities. Our fiscal year 2012 budget request for military 
family housing is nearly $500 million. Included in this request is $85 
million to improve nearly 1,400 homes in Japan and the United Kingdom 
and an additional $405 million to fund operations, maintenance, 
utilities, and leases, and to manage privatized units for the family 
housing program.
    Housing privatization has leveraged $423 million into $6.5 billion 
in private sector financing; it is central to the success of our 
housing initiatives. At the start of fiscal year 2012, we will have 
47,700 privatized units, increasing to 52,500 by January 2012, when 100 
percent of our family housing in the United States will be privatized.
Child Development Centers
    The final component of caring for airmen and families is ensuring 
the children of our service men and women receive the same standard of 
care at installations around the world, from bases in major 
metropolitan areas to those in remote locations to those overseas. The 
American Recovery and Restoration Act allowed us to allocate $80 
million for eight new child development centers, to help ensure that 
our force has adequate child care capacity. This year, we have only one 
requirement for a child development center, at Holloman Air Force Base, 
New Mexico. This $11 million project will get our airmen's children out 
of temporary, substandard facilities.
 modernize our air, space, and cyberspace inventories, organizations, 
                              and training
    Modernizing our force to prepare for a wide range of future 
contingencies requires a significant investment. For fiscal year 2012, 
a key focus area is enabling the beddown of several new weapon systems. 
Therefore, we are requesting $233 million for a variety of MILCON 
projects, including:
      Five Projects To Beddown Our Newest Fighter, the F-35.--This 
        includes the F-35 force development and evaluation mission at 
        Nellis Air Force Base, Nevada, the second training location at 
        Luke Air Force Base, Arizona, and the first operational unit at 
        Hill Air Force Base, Utah.
      Three Projects Supporting Our HC/EC/C-130J Fleet.--These projects 
        include a joint use fuel cell at Davis-Monthan Air Force Base, 
        Arizona, and flight simulators at Davis-Monthan and Pope Air 
        Force Base, North Carolina.
      Three Projects Supporting the Pacific Regional Training Center at 
        Andersen Air Force Base, Guam.--This requirement was driven by 
        the re-location of the 554th RED HORSE from Korea to Guam in 
        2007, along with an increased need for expeditionary training 
        in the Pacific.
      Other Projects.--These will support diverse mission areas, 
        including C-5 training, F-22 support, the F-16 beddown at 
        Holloman Air Force Base, New Mexico, and support operations at 
        Barksdale Air Force Base, Louisiana; Fairchild Air Force Base, 
        Washington; the United States Air Force Academy, Colorado; and 
        Cannon Air Force Base, New Mexico.
                    recapture acquisition excellence
    The Air Force continues its efforts to optimize the effective use 
of taxpayer resources in the acquisition of goods and services. By 
focusing on asset management principles, we have built a culture that 
supports the warfighter by delivering the right products and services 
on time, within budget, and in compliance with all applicable laws, 
policies, and regulations. Where possible, we seek strategic sourcing 
opportunities to maximize the use of available dollars, pursuing ways 
to leverage our size as we purchase common commodities and services to 
be used across the enterprise. Our engineering and contracting 
communities continue to partner on efforts to transform the processes 
that support Air Force installation-related acquisition.
                         other programs of note
 Base Realignment and Closure Actions
    Completing Air Force BRAC actions remains a priority for the Air 
Force and Department of Defense. The fiscal year 2012 request includes 
$123.5 million for legacy BRAC actions at our 28 remaining former 
bases, and $1.97 million to perform program management, environmental 
restoration, and property disposal at locations closed in BRAC 2005. 
The Air Force is on track to fully implement all BRAC 2005 
recommendations by the mandated September 2011 deadline.
Legacy Base Realignment and Closure
            Real Property Transformation
    The Air Force remains a Federal leader in the implementation of the 
management principles outlined in Presidential Executive Order 13327, 
Federal Real Property Asset Management. We continue to aggressively 
manage our real property assets to deliver maximum value for the 
taxpayer, improve the quality of life for our airmen and their 
families, and ensure the protection and sustainment of the environment 
while providing the highest level of support to Air Force missions. The 
Air Force is achieving these goals through an enterprise-wide asset 
management transformation that seeks to optimize asset value and to 
balance performance, risk, and cost over the full asset lifecycle. Our 
approach is fundamentally about enhancing our built and natural asset 
inventories and linking these inventories to our decisionmaking 
processes and the appropriate property acquisition, management, and 
disposal tools. Even though the BRAC 2005 round did not substantially 
reduce the Air Force's real property footprint, our current 
transformation efforts seek to shrink from within and to leverage the 
value of real property assets in order to meet our ``20/20 by 2020'' 
goal of offsetting a 20-percent reduction in funds available for 
installation support activities by achieving efficiencies and reducing 
by 20 percent the Air Force physical plant that requires funds by the 
year 2020.
            Base Realignment and Closure Property Management
    To date, the Air Force has successfully conveyed nearly 90 percent 
of the 88,000 acres of Air Force land directed by BRAC 1988, 1991, 
1993, 1995, and 2005 with the remainder under lease for redevelopment 
and reuse, or pending final transfer. With the successful redevelopment 
of Air Force BRAC property, local communities have been able to 
increase the number of area jobs by more than 45,000.
    To complete the clean up and transfer of remaining property, the 
Air Force is partnering with industry leaders on innovative business 
practices for its ``way ahead'' strategy. Of the 40 BRAC bases slated 
for closure--including BRAC 2005--the Air Force completed 23 whole-base 
transfers as of September 2010. Eleven of the remaining 17 legacy and 
BRAC 2005 bases are targeted for transfer by the end of fiscal year 
2011, while the remaining BRAC bases (Chanute, George, McClellan, 
Wurtsmith, Williams, and Galena) will transfer no later than the end of 
fiscal year 2014.
    In February 2011, I issued a memo directing accelerated site 
completion and performance-based remediation (PBR) performance 
objectives. For the BRAC program, 90 percent of all sites must be 
completed by 2015 and 95 percent under a PBR by 2014. Performance based 
remediation projects and contracts represent the Air Force's best tool 
for achieving site completion in the quickest timeframe and best value 
to the Air Force, while still protective of human health and 
environment. Also included in this directive, is an initiative to 
reduce overhead and management costs to below 10 percent of program, 
costs.
Joint Basing
    The Air Force remains committed to maximizing installation 
efficiency and warfighting capability, while saving taxpayer resources 
and being the best partner we can be. The Air Force has equity in 10 of 
the 12 joint bases and is the lead service for 6 of the 12. All 12 
bases achieved full operating capability on October 1, 2010. We 
anticipate that the benefits derived from this initiative will yield 
significant efficiencies and cost savings.
Energy
    The Air Force energy vision is to reduce demand through 
conservation and efficiency, increase supply through alternative energy 
sources, and create a culture where all airmen make energy a 
consideration in everything we do. In pursuit of this vision, the Air 
Force continues as a Federal energy leader by advancing energy 
independence through coordinated efforts aimed at minimizing energy 
costs and leveraging proven technology in conservation measures and 
renewable energy development, while matching system reliability and 
critical asset security with Air Force mission requirements. These 
efforts effectively reduce dependence on commercial supply and delivery 
systems and enhance energy security for the Air Force. The Air Force is 
committed to reducing its greenhouse gas emissions and carbon footprint 
through the reduced use of fossil fuels consumed directly through 
vehicles and facilities or indirectly through consumption of fossil 
fuel-generated electricity from the national electric grids. In fiscal 
year 2012, we will continue our energy conservation efforts, which have 
already reduced facility energy use nearly 15 percent from 2003 levels. 
In fiscal year 2011, we exceeded our goals and produced or procured 
nearly 7 percent of our total facility energy from renewable sources, 
and we have led the Department of Defense as the No. 1 purchaser of 
renewable energy for the fifth year in a row.
                               conclusion
    The Air Force remains a trusted and reliable joint partner--all-in 
to provide air, space, and cyberspace capabilities to our combatant 
commanders as they face the myriad short- and long-term security 
challenges in their areas of responsibility. Nearly two-thirds of the 
men and women serving in our Air Force today are actively supporting 
combatant commanders in their fight across the full spectrum of 
military operations from installations all over the world. Our fiscal 
year 2012 budget request balances warfighter requirements, 
recapitalization efforts, new mission beddowns, and quality-of-life 
requirements.
    As we have shown, it remains aligned with the fundamental 
priorities of our Air Force:
  --Continue to strengthen the nuclear enterprise;
  --Partner with the joint and coalition team to win today's fight;
  --Develop and care for our airmen and their families;
  --Modernize our air, space, and cyberspace inventories, 
        organizations, and training; and
  --Recapture acquisition excellence.
    In addition to being committed to providing and maintaining 
effective infrastructure, efficiently right-sized to support our 
missions and priorities, we are also committed to ensuring that we 
continue to care for our total force airmen and their families. This 
includes making good on our promise to provide first-class dormitories 
and housing with a focused determination to eliminate inadequate 
housing for all by 2017. Finally, we remain committed to ensuring the 
judicious and responsible use of taxpayer resources with every decision 
we make.
    In so doing, we remain focused on a continual pursuit of 
efficiencies that allow us to provide our trademark delivery of 
effective air, space, and cyber power while ensuring maximum impact 
from every $1 spent. Thank you for your continuing support of our 
Nation's Air Force.

    Senator Johnson. Thank you, Mr. Secretary.
    Secretary Yonkers, earlier this year Secretary Gates 
announced a DOD efficiencies initiative that included $34 
billion in savings from the Air Force through 2016. Will any of 
those savings be derived from the MILCON program?
    Mr. Yonkers. Thank you for the question, Senator Johnson. 
No, sir, the MILCON program remains untouched with regards to 
the efficiencies. We did take efficiencies in the sustainment, 
restoration, and modernization. And through various mechanisms 
such as better business practices, using asset management 
principles and through contracting and other mechanisms, we are 
pretty convinced that we are going to be able to do a better 
job in our facility sustainment and thereby reducing the 
investment that we are making there. Over the Future Years 
Defense Program, that should save us about $1.6 billion.
    But I will also remark that, just like the Army, we are 
beefing up our restoration and modernization accounts. And 
you've seen this, I think there is about $197 million 
additional for this fiscal year 2012 request to do exactly what 
the Army talked about doing, reducing our footprint with new 
construction and taking better care of the facilities that we 
already have in place.
    Senator Johnson. Secretary Yonkers, thank you for bringing 
us up-to-date to the Northern Group housing plan.
    Secretary Yonkers, the Air Force had a strong reservation 
about the joint-basing decision mandated by the BRAC 2005 at 
the beginning of the process. Where is the Air Force now on 
joint basing?
    Mr. Yonkers. Sir, I think we are all in. We were concerned 
initially as to whether or not the efficiencies would be 
returned as projected. I think we are now beginning to see that 
the fruit of those endeavors is beginning to bear out. As you 
probably know, we went full operational capability on all of 
the joint bases last year. So it has been a pathway for us to 
get to where we are.
    I have been out to almost every one of the joint bases now, 
including some of the Army lead as well as the Navy lead, and 
what I am seeing is a terrific amount of effort putting into 
making this work and work right. And I think over time that we 
will see this mature, we are going to start realizing those 
efficiencies that we expected when we started down this path 
some years ago.
    Senator Johnson. As you well know, the Congress has been 
helpful in the past by providing funding for additional MILCON 
dollars for the Air Guard and Air Force Reserve in the form of 
earmarks and plus-ups to account top lines.
    General Etter and General Jackson, with the ban on 
earmarks, does this change any of your funding priorities in 
the fiscal year 2012 request or future requests?
    General Etter. Senator, thank you for the question.
    The Air National Guard participates in the enterprise-wide 
integrated Future Years Defense Program MILCON process. Within 
the process, the Air National Guard is treated as a full 
partner. We appreciate the past strong support of the 
subcommittee and all the members. As with any set of 
priorities, often there are more requirements than resources. 
Any future support would help satisfy Air National Guard 
requirements.
    Senator Johnson. General Jackson.
    General Jackson. Mr. Chairman, thank you very much for the 
question.
    We have not seen an impact in our priorities. We, once 
again, compete within the Air Force total MILCON process. We 
get our fair share. We have been able to go ahead and put into 
the fiscal year 2012 budget our top two priorities, so we think 
that we are competing fairly there. And we will have to 
continue to go ahead and look for more efficient means and 
better ways of racking and stacking our projects.
    Senator Johnson. Senator Kirk.
    Senator Kirk. Thank you, Mr. Chairman.
    Secretary Yonkers and General Byers, are we going to see a 
full-tour norm proposal for Kunsan Air Base?
    Mr. Yonkers. Sir, as you know, the Secretary of Defense's 
instruction was to look at this from an affordability point of 
view and we all know that this is going to be a big bill to 
pay. I would say right now, we have looked at several 
alternatives, particularly for our housing at Kunsan Air Base, 
South Korea. And the spread of dollars that we are seeing is 
somewhere between $1.3 billion and $5 billion, depending upon 
whether or not we can work a public-private partnership, or 
whether we would go full up on a full MILCON.
    So right now, it is a question of affordability for us, and 
we have not made any decisions about it.
    Senator Kirk. Great. Obviously be a concern actually about 
both numbers.
    On the Andersen general plan, it is kind of the chamber of 
commerce view, but I think it is page 40 did give us the 
beginnings of what a master plan would look like.
    I think for us in the subcommittee, what would be most 
helpful is what the Office of the Secretary of Defense 
originally put out back in fiscal year 2009 for what Guam 
construction looks like. Would it be possible for you guys to 
update this so we could see what Andersen really looks like?
    Mr. Yonkers. Sir, we will be happy to share the Air Force's 
master plan for Guam.
    Senator Kirk. Does it exist, or is it just kind of this 
thing?
    Mr. Yonkers. Well, I will let General Byers also talk to 
this, but we have, as you know, identified the MILCON 
requirement for the full build-out of Guam Strike on Guam over 
the course of several years. That is going to be about $700 
million. So we already identified the MILCON and other kinds of 
requirements that are going to need to construct at Guam to 
meet our combatant commander support responsibilities for that 
area of the Pacific.
    General Byers. Senator Kirk, we have details on all of our 
plans for the next 20 years, our base master plan for Andersen 
Air Force Base, and we can definitely sit down and give you the 
rest of those details that you require.
    [The information was not available at press time.]
    Senator Kirk. Good. And the schedule of when things hit?
    General Byers. When we plan on doing it is based on the 
budget, yes, sir.
    Senator Kirk. Great.
    General Byers. If we have a beddown requirement and we know 
what year, we can do that.
    Senator Kirk. We are seeing the growth of unmanned aerial 
vehicle systems, obviously very big and popular. In my other 
life, I am a huge customer of them.
    At Sigonella, it is basically becoming an Air Force base 
now. Will we begin to see that takeover? I can't imagine there 
is much Navy happening there at all anymore, but with Unified 
Protector, it is kind of all your show.
    Mr. Yonkers. Senator Kirk, I have not been to Sigonella, so 
I cannot really respond, but maybe some of my other panel 
cohorts could.
    General Byers. Senator Kirk, as you mentioned, there are a 
lot of requirements there that the Air Force has put in, 
especially for unmanned aerial systems and obviously in our 
fiscal year 2012 request, a satellite communications relay 
parts for our unmanned aerial systems.
    There has not been a discussion with the Navy for any 
details of us taking over the base-operating support 
requirements for that particular installation at this point.
    Senator Kirk. It would seem that that would make sense for 
you guys.
    Last thing, and I raised this before with the Office of the 
Secretary of Defense side, but if I can go back to Guam for a 
second. It is a very complicated build, it is a very expensive 
build, and yet, it is completely worthless if it gets pummeled 
in the first hours of a conflict. And so, can we begin to think 
about what the MILCON requirements are to actually defend the 
island itself?
    Mr. Yonkers. Senator, you're making a great point. And you 
know, we harden, right now, our facilities based on climatic 
conditions. There is, as you probably----
    Senator Kirk. Unfortunately, the climate is going to be 
several hundreds of surface-to-surface missiles landing on the 
island.
    Mr. Yonkers. Yes, sir. I think we need to re-look this. I 
think your point is so well taken.
    There are a number of different options I think you are 
aware of with regards to dispersion and so forth, and those 
game plans haven't quite come together yet. And as they do, I 
think it will put more focus on the hardening and the defensive 
mechanisms that yet to be decided on the island and how we 
would defend against it.
    Senator Kirk. Yes. I meant to ask this of the Army, but 
since I have you guys there, it would seem that before tens of 
billions get thrown in there, you would put a missile defense 
base in and other ways to make sure that you were invulnerable 
to bomber and fighter or cruise missile strike.
    Mr. Yonkers. Sir, we are always happy to make commitments 
on behalf of the United States Army.
    Senator Kirk. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman, and thank you 
gentlemen for being here today.
    Secretary Yonkers, for the past several years, the need for 
a new U.S. Strategic Command (USSTRATCOM) headquarters building 
has been apparently identified as a requirement and priority. 
The Department's budget seeks to fulfill that requirement by 
requesting authorization of $564 million for a new 
headquarters.
    As I understand the request, the full authorization is 
being requested this year and the appropriation will be in 
three increments with the first phase being $150 million for 
fiscal year 2012.
    Could you outline the Air Force's decision to build a new 
facility versus to renovate the current headquarters?
    Mr. Yonkers. Senator Nelson, good to see you again, sir.
    Senator Nelson. Good to see you.
    Mr. Yonkers. You know this nuclear deterrent mission that 
is performed by USSTRATCOM is absolutely essential to our 
Nation. And this building that they are in right now, this 
building 500/515 is 57 years old. While the inside of this 
building and the outside structure are in pretty good shape, 
the infrastructure is in need of repair in any number of 
different ways. And we saw this back in December when the water 
pipe broke and flooded the basement of the building.
    As you accurately portray, the request is for $564 million 
spread across 3 years--$150 million in fiscal year 2012; $250 
million in fiscal year 2013; and the remainder in fiscal year 
2014 with an occupancy date on or about the latter part of 
fiscal year 2016 or the early part of fiscal year 2017.
    We are looking at phasing this for a number of different 
reasons. For one reason, affordability and what we can put into 
the budget on any particular fiscal year. But also from a 
practical point of view, in terms of being able to execute the 
construction, given those amounts of dollars, we need to spread 
it over the 3 years.
    Senator Nelson. Do you think the Air Force will be able to 
execute the $150 million needed in fiscal year 2012? I guess 
you were assuming that we would pass the budget and authorize 
it. But are you anticipating that that will be executed as a 
result of fiscal year 2012?
    Mr. Yonkers. I will give you my answer and then I will ask 
the Civil Engineer of the Air Force to embellish. But I don't 
think we are seeing any potential delays in being able to 
execute that $150 million. I mean, it really does depend upon 
how long it takes to get the green light to proceed. But right 
now I think we are going to be able to execute it.
    Senator Nelson. General Byers.
    General Byers. Senator Nelson, we will be 100-percent 
designed in June 2011 and ready to award as soon as the 
appropriation is available to us for fiscal year 2012.
    And just to embellish a little bit more on Mr. Yonkers' 
statement earlier. One of the things we did when I was the Air 
Combat Command Civil Engineer, working with General Chilton at 
the time he was the USSTRATCOM commander----
    Senator Nelson. Yes.
    General Byers [continuing]. Was to look at several options. 
We did a business case analysis and we also did an economic 
analysis, so two separate studies, to look at all the options: 
to renovate as-is, to build new, to do a modification of some 
new, and some renovate. And all those led to being the 
cheapest, being the fastest and the best impact to the mission 
was to build new, as we have brought into the fiscal year 2012 
program.
    Senator Nelson. Well, it is an obvious question, I guess I 
am just getting it for the record. What would be the impact of 
any reductions in the funding of this year? That sounds like a 
question for an engineer.
    General Byers. Yes, sir. The Army pretty well laid it out. 
Anything for fiscal year 2011, same issues. For fiscal year 
2012, any delay will cause a delay in the mission and the 
impact at Offutt Air Force Base is not quite as bad as Alaska, 
but it is still pretty cold there, and it does have a short 
construction season. So if the appropriation is enacted on 
time, we will get the best use of the construction timing and 
it won't delay the construction season, nor delay the mission, 
if we can stay on track.
    Senator Nelson. Well, you're right about Nebraska. We have 
two seasons. We have building season and football season. So.
    General Byers. Yes, sir.
    Senator Nelson. To optimize the construction process over a 
3-year period, stretching the funding over a 3-year period, 
that simply will be a good way to facilitate the construction. 
If you had all the dollars in a check right now, you couldn't 
put it all in the ground at the same time. Do you feel that 
that is an appropriate way to do this?
    I think maybe I'd ask the engineer first and then Secretary 
Yonkers. General Byers.
    General Byers. Sir, thanks again for a great question.
    You are spot on, we can't put $564 million in the ground 
right away. In fiscal year 2012, we have a lot of other 
priorities in the Air Force for quality of life and mission. So 
we went to the Office of the Secretary of Defense to ask for 
incremental funding of this project, in other words, one 
project authorized and awarded, but spread the money out to 
line up with the construction period. And that is what we did. 
Working real close with the Army Corps of Engineers, how much 
we needed in the first year of fiscal year 2012, how much in 
fiscal year 2013, and how much we need to finish up in fiscal 
year 2014.
    So it does a couple of things for us. It helps us get other 
MILCON dollars, into the right projects that we need. Second 
is, it ensures that we have enough money to continue the 
construction period without work stoppage; even if we are a 
little late in some fiscal years of appropriating the dollars, 
we should be okay.
    Senator Nelson. Mr. Yonkers, do you have any thoughts you 
would share?
    Mr. Yonkers. No, sir, I think General Byers answered the 
question.
    Senator Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. And I want to 
thank everybody for being here today to testify.
    I know that you are well aware of the mission conversion 
issues that we are working through in Montana with the Air 
National Guard unit, and if you are not, you can stop me right 
away.
    I want to thank the Air Force and the Air National Guard 
for working with the Montana Air National Guard as we continue 
to find the right solution with our manpower concerns and our 
potential mission conversion from F-15s to C-27Js.
    We have talked and written about this repeatedly over the 
past 2 years. It is a big change. But, in particular, I want to 
express my appreciation for the past observations about the 
value of an airspace east of Great Falls and what an important 
national asset that airspace is. My concern is that I don't 
want to see that airspace underutilized, and I think you share 
that same concern. There are very few places left in this 
country where we have the amount of room to operate overland. 
In fact, I don't know that there is any, 4.5 million acres with 
a lack of civilian over flights.
    Can we get your commitment that you won't forget about that 
national asset as the Air Force considers future requirements?
    Mr. Yonkers. Senator, I appreciate your comment. And as we 
talked when the civic group came in, for example, we recognized 
that is unused airspace, uncrowded airspace. It truly is a 
national asset.
    As we think through these future basing decisions, these 
kinds of things will come into play and will be a prominent 
criteria for how we decide where we are going to beddown 
whatever weapon system it is that we're talking about.
    Senator Tester. Okay. Thank you for that.
    As Air Force has concluded and indicated to us, the Air 
Force hopes to be transitioning the F-15s that are currently in 
Great Falls, Montana Air National Guard to the California Air 
National Guard in Fresno as part of a larger Air Force aircraft 
reconstruction plan very soon, contingent on the completion of 
an environmental impact statement (EIS).
    Is that correct?
    Mr. Yonkers. Yes, sir, that is correct.
    Senator Tester. What's the status of that EIS?
    Mr. Yonkers. I believe the EIS is about to be wrapped up in 
the latter part of the summer, if I remember the dates 
correctly. And so far the information that we have is that 
there really are no show stoppers on the EIS.
    Senator Tester. And what do they take into consideration?
    Mr. Yonkers. Any number of different things.
    Senator Tester. They can take into consideration noise on 
neighborhoods?
    Mr. Yonkers. Noise, air quality, biological, cultural, et 
cetera.
    Senator Tester. Do they take into consideration things like 
effectiveness of those fighters at the Montana Air National 
Guard versus the effectiveness those fighters would be with the 
California Air National Guard in Fresno?
    Mr. Yonkers. Typically environmental impact analyses do 
not. However, operational needs, requirements, and so forth do. 
And as you know, part of what you are talking about is a $3 
billion, almost a $4 billion savings as we restructured the 
Combat Air Forces, and looked at F-16s and F-15s.
    Senator Tester. I am all about the savings, but I have got 
to say it for the record, even though this isn't in your guys' 
bailiwick. I am a little biased, but I don't mind basing it on 
fact. The Montana Air National Guard has met every doggone 
thing they have put up against them, and they have done it 
every time, and they have done it incredibly well. I don't know 
that Senator Feinstein could say the same thing about the Guard 
in Fresno. Just my observation. You can respond if you'd like.
    Mr. Yonkers. Sir, you know, the Air National Guard in 
Montana is quality, so well noted.
    Senator Tester. Yes. Thank you. I appreciate that.
    And as you can tell, that outfit has been a fighter unit 
forever, and I appreciate the C-27Js coming in, but that 
airspace, I talked about that 4.5 million acres, my farm is 
under that. I remember as a 6-year-old watching the F-102s fly 
over. And to take them out away from that airspace, as a dirt 
farmer, I don't think it makes a lot of sense, as a military 
person, I will have to defer. But I still think, when we look 
back on it, I am not sure it is the best thing for the country.
    I just want to talk about electronic medical records just 
for a second. Secretaries Gates and Shinseki have agreed to 
create a joint common platform for the Department's electronic 
medical records, early May deadline to come. I don't know if 
you guys have any say where that repository is going to be, do 
you?
    Mr. Yonkers. You are catching me really cold. No, I don't.
    Senator Tester. Yes, that is okay. That is the best way to 
do it.
    Mr. Yonkers. I don't know. This would be in the bailiwick 
of our surgeon general. And that is about all I can say about 
it.
    Senator Tester. Okay. Well, we have got a base up there 
called Malmstrom Air Force Base that happens to be on the east 
end of Great Falls, the Air Guard is on the west end. And it is 
an incredible piece of property and also another incredible 
asset that has great infrastructure built originally for the 
transport missions. And so if there is any way that you can 
help influence the final decision on where that database might 
go, it would be a nice place to put it.
    Thanks, folks. Appreciate your service to this country.
    Mr. Yonkers. Thank you, Senator.
    Senator Kirk. Senator Tester, by the way, I think Senator 
Durbin and I would be very happy to take those C-27Js off you 
for Springfield. So.
    Senator Tester. If we could keep the F-15s, I would be 
inclined to say go ahead.
    Senator Johnson. Obviously, Senator Tester, the assets you 
speak about obviously belong at Ellsworth Air Force Base.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. Secretary Yonkers, 
thank you for being here. General Byers, General Etter, and 
General Jackson, thank you for your service. We have the Minot 
Air Force Base and the Grand Forks Air Force Base in North 
Dakota, also the North Dakota Air National Guard, and all do 
just an outstanding job, as do all of you that wear the blue 
suit. We are really proud and really appreciative of what you 
do and all the men and women in our great Air Force. My wife 
grew up in the Air Force. Her family is career Air Force. And I 
tell you, the things that you do, not only here to protect our 
country, but all over the world, is absolutely amazing. So I 
thank you.
    Secretary Yonkers, if I could, I would like to start with 
you. And you know, you may want to hand some of these questions 
off and you probably are best equipped to make that call.
    The Minot Air Force Base is getting an additional squadron 
of B-52s. The 5th bomb wing is expanding with the 23rd bomb 
squadron. And it is going to be composed of the 23rd and 69th 
squadrons. So with the additional aircraft coming in, and as 
you know, the buses are big, it is going to require some 
facilities, some of which are in the 2011.
    Now, we are hoping with the vote today we will get you 
under way there. I know you're anxious to get going, and we 
need to get you going. But with some runway issues, control 
tower. But then in the fiscal year 2012, there are both some 
facilities as far as aircraft maintenance facilities, munitions 
maintenance facilities, and then dormitories. That is a 
community that is growing significantly, it is now up more than 
40,000. And so your young, outstanding airmen are coming in and 
not having a place to live right away, so the dormitories issue 
is very important, too.
    Could you comment on the MILCON there for that? Actually, 
it is not a mission conversion, it is mission growth. And if 
you would comment on that, I would appreciate it.
    Mr. Yonkers. Thank you, Senator. I would be happy to.
    We have got a number of what we call inadequate dormitories 
spread across our Air Force. And our goal right now is to make 
those whole by the year 2017.
    And General Byers can get into this in greater detail, but 
we have a dormitory master plan, and we are on track with the 
funding that we have spread out across the Future Years Defense 
Program, along with the dollars that we have in the 
construction program this year, to get to that point, both here 
and overseas as well.
    As you have adequately and eloquently stated, our airmen 
really are the basis of our Air Force. And we are trying to do 
everything we possibly can to improve their quality of life and 
whether they are deployed or here in the States, and also for 
their families.
    As far as some of the other MILCON is concerned, I know one 
of the things that is probably on your mind is the improvement 
of the runway. I think there is a $2 million MILCON project 
slated, and again, General Byers can correct me, this year to 
expand the taxiway as a temporary runway with O&M dollars being 
invested in the next 2-3 years to repair and make that a full-
up runway ready to do business for those B-52s.
    Senator Hoeven. That is right on, Mr. Secretary, and it is 
very important. It is, both your MILCON budget and then your 
O&M budget, as it is set up right now, is very important for 
the ability of our airmen and aircraft to deliver those 
missions. And so, the way you have it slotted right now between 
MILCON and O&M is good, and it is very important that you stick 
to it.
    And so your comments there? At this point, it is looking 
like you are on track and you are going to be able to stay on 
track, correct?
    Mr. Yonkers. Unless something extraordinary happens, sir, 
yes.
    Senator Hoeven. Okay. Well, it is a good plan, and I 
commend you for it. And I want to work hard to help you achieve 
it on behalf of our airmen and the mission.
    Switching gears, Grand Forks Air Force Base is actually 
converting now to the Global Hawk mission. Again, that is going 
to be important. Again, your plans look good and we want to 
make sure that we are doing everything we can to help support 
you in that endeavor, and I hope you will let me know, but also 
there are fuel lines at that facility. And there is tremendous 
facilities there, but they need to be maintained. And so I 
would ask that you look at your O&M account, and with our cold 
weather and all, make sure that you are maintaining those 
underground fuel lines, both for the unmanned mission or the 
remotely piloted aircraft mission, but also potentially for the 
future tanker mission now that tanker mission is going forth.
    That is a tremendous asset and a tremendous facility and I 
would ask that you check and get back to me that you are, 
through your O&M account, maintaining those fuel lines, for 
both now and for the future.
    Mr. Yonkers. Well, I would remark that I agree 100 percent. 
Not only are fuel lines required for mission essential 
requirements, but if we don't take good care of them, they 
become environmental hazards. And we are finding across our Air 
Force where we have spent millions of dollars not only in the 
fuel that we lost, but in cleaning up the fuel that is in the 
ground and the groundwater. So from my perspective, as far as 
underground infrastructure is concerned, that is one of the 
ones that peaks my interest the most.
    Senator Hoeven. Thank you.
    Mr. Chairman, if I could beg your indulgence for just 1 
minute?
    The other thing at Grand Forks is, we are bringing in a 
tremendous amount of support in the area for remotely piloted 
aircrafts, including University of North Dakota School of 
Aviation and Aerospace. Customs and Border Protection is also 
flying the unmanned aerial vehicles and the remotely piloted 
aircrafts--specifically, it is the Predator in their case. Our 
Guard flies the Predator now, one of the first Guard units to 
fly the Predator, they will also fly the joint cargo aircraft. 
They are flying the Predator right now along with the C-21.
    But all of these things go to--and we are getting a 
tremendous influx now of industry that is involved in 
developing, you know, the whole unmanned aircraft system 
mission. And it is very important that we continue to develop 
that here at home because we have got to maintain your global 
leadership in unmanned aerial systems. You are the leader. I 
think this is incredibly important for the future of the 
country. And so I would ask that you do focus attention on 
Grand Forks Air Force Base and making sure that we have 
whatever we need to continue to make that mission the best 
possible mission.
    We are dovetailing it now with being able to fly unmanned 
aircraft systems here in the United States with concurrent 
airspace, and that is what we're working toward. So we are 
trying to make sure that that is an asset and an opportunity 
for Air Force.
    And so, again, just any thoughts that you might have on how 
we can work on building that mission the right way for the 
future of unmanned aircraft system in this country and for Air 
Force.
    Mr. Yonkers. Well, as you know, Senator, it is a critical 
mission for us, and it is a growing mission. Eventually, we 
will get to 65 combat air patrols. A good lot of that will be 
with the Air National Guard. We have a number of different 
locations that we are yet to be looking at with regards to 
where we will beddown some of these Predators or Reapers or 
even some of the Global Hawks, so it is a work in progress, but 
a good lot of that will end up with the Air National Guard at a 
number of different locations.
    I think it is fair to say that we are engaged strongly, not 
only with Department of Homeland Security's Customs and Border 
Protection in particular, but with the Federal Aviation 
Administration----
    Senator Hoeven. Right.
    Mr. Yonkers [continuing]. On how we are going to 
collectively figure out how to go about recognizing airspace 
for unmanned aerial vehicles or for remotely piloted aircraft. 
Those discussions are yet to be finalized, but we are pushing 
hard on resolving those kinds of issues.
    Senator Hoeven. It is an incredible opportunity, and I 
really am pleased to see that you are very tuned into it. And 
obviously, you are and I thank you for that.
    Senator Johnson. I would like to thank all of our witnesses 
for appearing before this subcommittee today. Thanks for your 
service to our Nation. We look forward to working with you this 
year.

                     ADDITIONAL COMMITTEE QUESTIONS

    For the information of members, questions for the record 
should be submitted by the close of business on April 22.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Terry A. Yonkers
               Questions Submitted by Senator Tim Johnson
                              b-1 bombers
    Question. Secretary Yonkers, the Air Force briefed my staff 
yesterday on the Department's plan to consolidate the B-1 fleet. 
Specifically, Ellsworth Air Force Base (Ellsworth AFB) will lose two 
aircraft as part of the consolidation plan.
    What impact will this have on future personnel levels and 
operations at Ellsworth AFB?
    Answer. As a result of Ellsworth AFB, South Dakota losing two B-1s 
as part of the fiscal year 2012 President's budget request, we project 
a fiscal year 2012 manpower reduction of 160 authorizations (12 
officer, 148 enlisted). Local B-1 operations are expected to decrease 
commensurate with the aircraft and manpower reductions.
    Question. It was estimated that this plan would save $357 million 
in the out years. Some of this savings, about $125 million, will be 
used to modernize the remaining B-1 fleet.
    Where will the remaining $231.9 million in savings be invested? 
Does the Air Force have specific programs identified that will be the 
recipient of these savings?
    Answer. The retirement of six B-1s will provide a total savings of 
$61.9 million in fiscal year 2012 and $357.3 million over the Future 
Years Defense Plan. Of these savings, the Air Force is reinvesting 
$32.9 million in fiscal year 2012 and $125.4 million over the Future 
Years Defense Plan, into critical B-1 sustainment and modernization 
programs to ensure the health of the remaining fleet. These programs 
include procurement and installation of vertical situation display 
upgrade and central integrated test system sustainment efforts, fully 
integrated data link capability upgrade, and procurement of critical 
initial spares for these modifications.
    The remaining $231.9 million enabled the Air Force to make 
additional investments in other Air Force and Department of Defense 
(DOD) priorities to include the future long-range penetrating bomber 
and programs that support activities such as continuing to strengthen 
the nuclear enterprise and building partnerships capacity.
                  air force financial services center
    Question. Secretary Yonkers, the Air Force has also decided to 
disperse current military pay operations of the Air Force Financial 
Services Center (AFFSC) out to the installations and eliminate military 
positions in South Dakota. It is my understanding that the Air Force 
consolidated these functions in 2007 as an efficiencies/cost savings 
measure. Now, more than 4 years later, the Air Force is reversing that 
decision claiming that this action will increase efficiency and improve 
customer service. I worry that this gives the Air Force a credibility 
problem.
    Secretary Yonkers, I know this is outside of your expertise, but 
can you tell me how the Air Force hopes to avoid the mistakes of the 
past by redistributing personnel out to the field?
    Answer. Military pay operations was never intended to permanently 
reside at the AFFSC in South Dakota. The manual process was to be 
subsumed by DOD's automated Defense Integrated Military Human Resources 
System (DIMHRS). DIMHRS was supposed to merge a military member's 
personnel record and pay record into one, with the result that a 
personnel transaction would automatically update the associated pay 
information. This would have eliminated the need for finance personnel 
to do a manual pay transaction. However, DIMHRS was canceled and the 
Air Force is now developing its own system, the Air Force Integrated 
Personnel and Pay System (AF-IPPS). AF-IPPS will be designed to 
integrate personnel and pay records. Over the past couple of years 
we've discovered that doing manual military pay transactions at the 
AFFSC slows processing time and decreases levels of customer service by 
adding a middleman.
    Question. How are we going to get efficient by dispersing people 
back out to the field, when it was determined over 4 years ago that 
consolidating into one location was key to reducing personnel cost and 
gaining efficiencies?
    Answer. Since DIMHRS was canceled and we are still doing manual 
military pay transactions, it makes sense to move back to the base 
level until AF-IPPS deployment. Personnel transactions are still done 
at the base level, and often drive a pay transaction. Having both at 
the base level allows for faster resolution of issues, quicker 
processing times by eliminating the middleman (the AFFSC), and face-to-
face customer service.
                  northern group housing privatization
    Question. In December, the Air Force issued a notice to proceed 
with the long delayed the Northern Group Housing plan, which includes 
Ellsworth.
    What is the status of this plan?
    Answer. The Northern Group Housing Privatization Project (Minot Air 
Force Base, North Dakota; Grand Forks Air Force Base, North Dakota; 
Cavalier Air Force Station, North Dakota; Ellsworth Air Force Base, 
South Dakota; Mountain Home Air Force Base, Idaho; and Cannon Air Force 
Base, New Mexico) remains on track for a project closing in January 
2012. Proposals were received on April 5, 2011. Oral presentations from 
the offerors were presented on May 2-6, 2011. The selection of the 
highest ranked offeror is scheduled for July 2011 and following 
congressional notification of this selection the Air Force will enter 
into a period of exclusive negotiations with the highest ranked 
offeror.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
                 little rock mission and restructuring
    Question. An important Air Force installation in my State is the 
Little Rock Air Force Base (LRAFB). The base is the home of the C-130 
center of excellence. The C-130 mission at the base is undergoing some 
restructuring with the Reserve training unit coming under the Guard 
unit.
    The restructuring of the C-130 training unit involves a Reserve 
unit coming under the command of a Guard wing and this is taking place 
on an Active Duty base.
    Can you give me your impression regarding how this mission and the 
restructuring are going at LRAFB?
    Answer. The transition of legacy C-130 training from the Active 
component to the Reserve component is in progress and on schedule; but, 
we face some manpower and aircraft availability challenges. This is the 
first time a C-130 Air National Guard unit has associated with an Air 
Force Reserve unit. The Air Staff, Air Force Reserve Command, Air 
National Guard, and Air Education and Training Command will continue to 
work through these and other issues as they arise to ensure mission 
success of this training partnership.
    Question. An important Air Force installation in my State is the 
LRAFB. The base is the home of the C-130 center of excellence. The C-
130 mission at the base is undergoing some restructuring with the 
Reserve training unit coming under the Guard unit.
    Can you describe the unique role that LRAFB plays in training our 
C-130 pilots and navigators?
    Answer. As you have stated, LRAFB, Arkansas hosts the C-130 center 
of excellence and provides C-130 qualification training required for 
the Air Force, Navy, Marines Corp, Coast Guard, and our international 
partners. This includes all variants of the C-130 and all crew 
positions (pilots, navigators, flight engineers, and loadmasters).
    Question.  An important Air Force installation in my State is the 
LRAFB. The base is the home of the C-130 center of excellence. The C-
130 mission at the base is undergoing some restructuring with the 
Reserve training unit coming under the Guard unit.
    I think it is important that all of our C-130 pilots receive the 
same high-quality training. It's my understanding that no one does C-
130 training better than the LRAFB. I mention this because I want to 
focus on efficiency both for the Air Force and for the C-130 students. 
LRAFB has all of the facilities (academics, simulators, and aircraft) 
in one location without any disruption to the flow of training.
    Do you all agree that C-130 training should be conducted by our 
military experts at the C-130 center of excellence?
    Answer. The Air Force performs a variety of C-130 training at 
multiple locations, but LRAFB, Arkansas is currently our primary C-130 
qualification training location and the majority of C-130 training will 
occur at LRAFB for the foreseeable future.
                                 ______
                                 
                Question Submitted by Senator Jon Tester
           housing privatization at malmstrom air force base
    Question. On January 12 of this year, I received a letter from the 
Air Force announcing their intent to award a combined housing 
privatization project to the Western Group bases, to include Beale Air 
Force Base, California; F.E. Warren Air Force Base, Wyoming; Whiteman 
Air Force Base, Missouri; and Malmstrom Air Force Base, Montana. In 
February, Balfour Beatty Communities, LLC, was awarded that contract, 
estimated at $330 million in development costs, slated to provide new 
and renovated housing for a total of 3,264 military families at the 
four bases combined. According to the DOD, this process represents a 
significant cost-savings to the Government. I applaud these measures.
    There are real concerns though as to how this private firm will 
utilize local subcontractors through a fair and competitive bidding 
process. Many of our small local military communities, like Great 
Falls, have greatly benefited in the past with MILCON projects. The 
rapport our small businesses have established within these military 
communities has provided top-notch workmanship on military bases 
through a fair and proven contract-bidding method.
    Many of the details with this privatized process are not yet 
transparent.
    Will contract bidding continue as it has in the past or will 
Balfour Beatty bring many of the subcontractors with them, thus hurting 
the local businesses and in turn the local economy? Please elaborate on 
the details?
    Answer. The Air Force encourages offerors to promote small business 
participation on their project teams. Companies that have been selected 
to enter into exclusive negotiations with the Air Force for housing 
privatization projects usually host industry forums at the bases to 
educate small businesses about project details and hire local 
companies. This is an efficient and cost-effective way for project 
owners to utilize local small businesses on their project teams. In our 
previous privatization efforts the majority of the work has been done 
by local businesses.
    Subsequent to the January notification you received, a protest of 
the Air Force's selection of Balfour Beatty Communities, LLC as the 
highest rated offeror (HRO) for the Western Group housing privatization 
project was filed with the Government Accountability Office. As a 
result of that protest the Air Force is currently taking corrective 
action to include re-evaluating proposals and making a new selection of 
the HRO for the Western Group project. When an HRO is selected we will 
encourage them to conduct industry forums and use small businesses, 
particularly in the Great Falls area.
                                 ______
                                 
              Question Submitted to General Timothy Byers
               Question Submitted by Senator Tim Johnson
                              mq-9 beddown
    Question. General Byers, what is the status of the MQ-9 beddown at 
Ellsworth Air Force Base?
    Answer. The beddown is on track. The environmental impact analysis 
process concluded in June 2010 with a categorical exclusion. The first 
ground control station will arrive in March 2012. The first combat air 
patrol to be controlled from Ellsworth Air Force Base, South Dakota is 
scheduled for May 1, 2012.
                                 ______
                                 
              Question Submitted to General William Etter
               Question Submitted by Senator Tim Johnson
                       lack of earmarks/plus-ups
    Question. General Etter and General Jackson, I will ask you the 
same question I asked the Army Guard and Reserve about earmarks.
    With the increased dependence on the Air National Guard (ANG) for 
mission support, and the backlog of military construction (MILCON) 
requirements for ANG facilities, can the ANG realistically meet its 
urgent MILCON requirements without help from the Congress through 
earmarks? What impact will the current ban on earmarks have on the ANG 
MILCON program?
    Answer. ANG MILCON projects in the fiscal year 2012 President's 
budget request competed along with all other Air Force and Air Force 
Reserve command projects in the Air Force's corporate process, and they 
were judged among the Air Force's highest MILCON priorities based on 
contributions to satisfying mission requirements at the appropriate 
timing/schedule.
    The ANG enjoyed generous additional MILCON funding from the 
Congress in years past and appreciates the support to help satisfy ANG 
and State mission requirements. The majority of former ANG 
congressional add projects funded recapitalization of existing 
facilities; without this funding stream, the ANG will need to carefully 
manage available assets and apportion the sustainment, restoration, and 
modernization, and unspecified minor MILCON funds available to support 
existing facilities as long as possible.
    The Congress has pledged to curtail earmarks and the associated 
acceleration of future MILCON requirements. In an environment of fiscal 
austerity, the ANG will continue to assess mission requirements and 
MILCON projects needed to satisfy the requirements, and advocate in the 
Air Force corporate process alongside all other Air Force missions, to 
achieve funding for the highest priority requirements across the 
Active, Guard, and Reserve mission sets.
                                 ______
                                 
              Question Submitted to General James Jackson
               Question Submitted by Senator Tim Johnson
                       lack of earmarks/plus-ups
    Question. General Etter and General Jackson, I will ask you the 
same question I asked the Army Guard and Reserve about earmarks.
    General Jackson, what impact will the earmark ban have on the Air 
Force Reserve's ability to meet its military construction (MILCON) 
requirements?
    Answer. The Air Force Reserve participates in the enterprise-wide 
integrated Air Force MILCON process. The Air Force works hard to ensure 
the Air Reserve components receive their fair share of funding during 
the Air Force corporate review process, and is treated as a full 
partner.
    The Air Force Reserve's plant replacement value is equal to 4 
percent of the total plant replacement value for all three components 
of the Air Force. In fiscal year 2012 the Air Force Reserve received 4 
percent of the MILCON funds available. However, with a backlog of more 
than $125 billion in validated MILCON projects, the Air Force Reserve 
cannot meet the Department of Defense benchmark infrastructure 
guidelines.

                          SUBCOMMITTEE RECESS

    Senator Johnson. This hearing is concluded.
    [Whereupon, at 3:48 p.m., Thursday, April 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
